<html>
<title> - TRANSITION ASSISTANCE FOR MEMBERS OF THE NATIONAL GUARD AND EDUCATION BENEFITS FOR THE TOTAL MILITARY FORCE WEDNESDAY, MARCH 22, 2006 U.S. HOUSE OF REPRESENTATIVES, SUBCOMMITTEE ON ECONOMIC OPPORTUNITY, COMMITTEE ON VETERANS' AFFAIRS, Washington, D.C. The Subcommittee met, pursuant to call, at 10:00 a.m., in the National Guard Armory Drill Hall Floor, 1408 S. 1st Street, Rogers, Arkansas, Hon. John Boozman [Chairman of the Subcommittee] presiding. Present: Representatives Boozman, Herseth and Snyder. Also present: Senator Pryor. MR. BOOZMAN. The meeting will be in order. Good morning and welcome to the home of the 142nd Field Artillery Battalion, commanded by Colonel Jeff Montgomery. We are very proud of all of our Arkansas Guardsmen and women and the 142nd holds a special place in our hearts. I want to thank everyone for working so hard to set the facility up. It looks great and looks very user friendly. I know there was a lot of hard work that went into preparing this. I am delighted that each of you could join us for this important</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                      TRANSITION ASSISTANCE FOR
            MEMBERS OF THE NATIONAL GUARD AND EDUCATION
                BENEFITS FOR THE TOTAL MILITARY FORCE 


WEDNESDAY, MARCH 22, 2006

U.S. HOUSE OF REPRESENTATIVES,     
SUBCOMMITTEE ON ECONOMIC OPPORTUNITY,
COMMITTEE ON VETERANS' AFFAIRS,
Washington, D.C.

	The Subcommittee met, pursuant to call, at 10:00 a.m., in the National 
Guard Armory Drill Hall Floor, 1408 S. 1st Street, Rogers, Arkansas, Hon. John 
Boozman [Chairman of the Subcommittee] presiding.
	Present:  Representatives Boozman, Herseth and Snyder.

	Also present:  Senator Pryor.

	MR. BOOZMAN.  The meeting will be in order.
	Good morning and welcome to the home of the 142nd Field Artillery 
Battalion, commanded by Colonel Jeff Montgomery.  We are very proud of all of 
our Arkansas Guardsmen and women and the 142nd holds a special place in our 
hearts.
	I want to thank everyone for working so hard to set the facility up.  It 
looks great and looks very user friendly.  I know there was a lot of hard work 
that went into preparing this. 
	I am delighted that each of you could join us for this important hearing 
on the effectiveness of today's GI Bill and Transition Assistance Program, 
commonly called TAP.  Following the hearing, we are going to visit the VA 
Hospital in Fayetteville.  Tomorrow, the staff and I will drive to Muskogee to 
see how they are handling education claims, then the staff will head back to 
D.C.
	Congressional committees are organized with a Chairman from the majority 
party -- and that is me -- and a Ranking Member from the minority party.  And I 
am very fortunate to have Ms. Stephanie Herseth as my Ranking Member.  Ms. 
Herseth represents the entire state of South Dakota, and I thank her for making 
the trip to Rogers to meet my constituents and get a look at this beautiful part 
of America.  So welcome, Stephanie, and I am holding you to your promise not to 
move to Arkansas and run against me.
	[Laughter.]

	MR. BOOZMAN.  And also, I apologized to her.  I promised her if she would 
come down, the weather would be better than South Dakota, which, you know, this 
time of the year, you should not have any problem producing.  But I do not know 
if we have done that or not.  So welcome, Stephanie, and I yield to you for your 
opening remarks.
	MS. HERSETH.  Well, thank you, Mr. Chairman, for holding this hearing and 
for inviting me here to beautiful northwest Arkansas.  This is my first trip to 
Arkansas and it is a pleasure to be here with you, with Congressman Snyder, 
another good friend of mine in the Congress, and with your constituents and 
service members and those who have served in Operation Iraqi Freedom and 
Enduring Freedom.
	I am pleased to enjoy your hospitality.  I was going to make a comment 
that I thought it was going to be a little bit warmer, but I cannot complain.  I 
will be heading back later to South Dakota to a number of inches of snow in the 
western part of the state.  So I am glad to be here without some of the snow on 
the ground.
	I am looking forward to today's testimony.  I appreciate the written 
testimony that has already been submitted to the Subcommittee. It has been very 
insightful.  As Ranking Member of the Economic Opportunity Subcommittee, I have 
an especially strong interest in exploring options to improve and modernize the 
Montgomery GI Bill as well as enhancing readjustment services for service 
members transitioning from military service back into civilian life, 
transitioning back from months of service abroad, especially in the Middle East, 
back to their communities, whether they be in Arkansas or South Dakota or 
elsewhere.
	I am looking forward to hearing from the witness panel of service members 
this morning about their particular experiences.  And additionally, I am 
interested in exploring the other panelists' views and perspectives on the 
proposed total force GI Bill.
	Since the Montgomery GI Bill was enacted over 20 years ago, our nation's 
dependence on the National Guard and Reserves has dramatically increased.  The 
Montgomery GI Bill was not originally structured with the Department of 
Defense's heavy operational mission use of selected reservists in mind.  So 
accordingly, I believe the time is right to re-evaluate and modernize and 
implement this important legislation.
	So I look forward to working with Chairman Boozman, with Congressman 
Snyder and with my other colleagues on the Committee, working with the military 
service branches and military and veterans' service organizations in developing 
policy aimed to improve education and transition services to our men and women 
in uniform.
	So thank you, Mr. Chairman.  I yield back.
	MR. BOOZMAN.  Thank you.  
	We are really very pleased to have the other member of the Arkansas 
delegation that is on the Veterans' Affairs Committee.  Mr. Snyder is here to be 
with us and, as you know, he represents the Second District of Arkansas and is 
one of the most active members on the Veterans' Affairs Committee and is a good 
friend, nobody does a better job caring for veterans in Arkansas than Vic 
Snyder.  Vic. 
	MR. SNYDER.  Thank you, Mr. Chairman. 
	Mr. Chairman, I just assumed that this hearing had been scheduled so it 
hit during filing week, so that if Congresswoman Herseth wants to make some kind 
of political move, she has got 10 days or so to make her decision.
	I really appreciate you holding this hearing, Mr. Chairman, and it is a 
great pleasure to have Stephanie here today.  She is one of the real bright 
spots in the Congress and on the Committee and I really appreciate her being 
here.
	I also wanted to recognize Devon Cockrell on my staff, over here taking 
pictures -- on my Little Rock staff, is a member of the Army Reserve and also 
spent a year in Iraq, so he has got his own views on some of these issues we are 
facing today, too.
	Mr. Chairman, I want to thank you for holding this hearing and for your 
interest in the GI Bill.  As you know, I am on both the Veterans' Affairs 
Committee and the Armed Services Committee and a lot of these issues we are 
going to be talking about today on the GI Bill are really under the jurisdiction 
of the Armed Services Committee, but I think our Committee has dropped the ball 
on these issues.  I think they are very important, I think we have modernization 
work we need to do on the GI Bill, and I think you are one of the leaders in 
that and I appreciate the both of you taking time to do the hearing, because we 
have not -- I hope this will set a model for the Armed Services Committee that 
we will follow because we have got some issues we need to address too.
	But thank you for doing this, I look forward to the testimony.
	MR. BOOZMAN.  Benefits program do not just exist to get a bureaucracy to 
do something.  Programs like the GI Bill and TAP exist to help those who wear 
the uniform re-enter civilian life and give them the opportunity to find 
success.  We will hear from several of those service members today and I am 
looking forward to their testimony because it is good to hear from the customer 
and that truly is why we are here.
	Everyone has probably heard of the GI Bill.  The first GI Bill came out of 
the horrors of World War II and, according to many sociologists, made the 
American middle class. Congress passed the most recent GI Bill in 1985 and it 
has served us well over the years of the Cold War and beyond.  But today's 
military reality is much different than from 1985.  Guard and Reserve call ups 
were rare then. Certainly not so today.  Our men and women in the Guard and 
Reserve are carrying a significant portion of the War on Terror, and we need to 
determine the extent to which we need to modernize the GI Bill, as was just 
alluded to by Mr. Snyder.
	TAP is a more recent phenomenon and is designed to update our 
servicemembers on programs that are available to them, such as the GI Bill or 
employment services through the Department of Labor, Veterans' Employment and 
Training Service, or VETS.  TAP was originally designed for those leaving active 
duty.  However, several states are now adapting TAP to meet the needs of the 
returning Guard and Reserve units.  These states are finding that a small 
investment in time and money following a long deployment has paid dividends in 
retention, recruitment, and fewer post-deployment family crises.  I believe 
every state should make that commitment and I hope we will hear what the 
Arkansas Guard is doing in that respect.
	Let us begin with the first panel.  We appreciate you all being here 
today.  We will start with Captain Jason Desoto, 142nd Field Artillery.

STATEMENTS OF CAPTAIN JASON DESOTO, A/1-142 FA BN, ARKANSAS NATIONAL GUARD; 
1ST LIEUTENANT DWAYNE K. PAGE, C/1-142 FA BN, ARKANSAS NATIONAL GUARD; 
MASTER SERGEANT BRYAN L. PETERS, NONCOMMISSIONED OFFICER IN CHARGE, PERSONNEL 
READINESS, ARKANSAS NATIONAL GUARD and SPECIALIST JOHN H. ROTHWELL, III, 
B/1-14 FA BN, ARKANSAS NATIONAL GUARD

STATEMENT OF CAPTAIN JASON DESOTO

	CAPTAIN DESOTO.  Good morning, Mr. Chairman, Ranking Member Herseth and 
Congressman Snyder.  I want to thank you in advance for the opportunity to speak 
with you today.
	As you said, my name is Captain Jason Desoto.  Currently I am the 
Commander of Alpha Battery, 2nd Battalion, the 142nd Field Artillery.  Since my 
mobilization for Operation Iraqi Freedom II in October of 2003, I have remained 
in a full time military capacity in the Arkansas National Guard.
	During OIF II, I was assigned as the fire support officer for Bravo 
Company, 1st Battalion, 153rd Infantry Regiment of the 39th Infantry Brigade 
here in Arkansas.  The battalion that I was a part of was attached to the 3rd 
Brigade, 1st Cavalry Division located in Baghdad, Iraq.  My responsibilities 
included coordination with local leaders of local governments, both at the 
neighborhood and district level inside of our zone of Baghdad.  I was also 
responsible for supervising the rebuilding projects in and around our district 
as well as conducting information operations in our zone.
	Approximately one month prior to our redeployment back to the United 
States, my unit began receiving briefings and health assessments to determine -- 
to identify both our physical and mental health needs, as we returned home.  
Once we arrived at Fort Sill, Oklahoma in March of 2005, we received more 
thorough health assessments that were done both at a group level and a one-on-
one basis to afford us more privacy.  The counseling that we had received was 
designed to assist us as we began our reintegration with our families once we 
had been released from Fort Sill.
	In addition, we were also briefed on the benefits that were available to 
us as veterans of foreign wars.  The demobilization process in Fort Sill took 
approximately two weeks and the adjustment to being back home is still ongoing 
today, even as some of us prepare to deploy in support of Operation Iraqi 
Freedom again.
	At this time, I am currently not receiving any type of assistance that was 
briefed to us once we were demobilizing.  However, I am planning to take part in 
some of the benefits through the VA.  I have scheduled an appointment with them 
and want to do this in case there are any complications that may have resulted 
from the deployment.
	In my opinion, the Transition Assistance Program is greatly needed. And 
maybe in some areas needs some adjustments and in some areas some expansion.  
The briefings that were delivered to us as a unit were done so professionally 
and were very informative.  However, I think that one adjustment that could be 
made to the program is that we could start the briefings and the health 
assessments at an earlier period, before we actually start the demobilization 
process.  I think one of the greatest problems that we ran into is that in some 
cases family members would literally be waiting outside of whatever building 
that we happened to be in while they are trying to conduct a health assessment 
with us.  And, you know, a soldier has not seen his family in 18 months, he may 
tend to prematurely answer some of the questions. 
	I think also, in addition to that, if the questions and some of the 
briefings were posed at an earlier point, it would give the soldiers and their 
families time to develop any questions and to become familiarized with all the 
programs and the benefits that are available to them.
	In closing, I wanted to again express my appreciation to the Chairman and 
to the Subcommittee for the opportunity to speak with you.  I will be happy to 
answer any questions you may have.  Thank you.
	MR. BOOZMAN.  Thank you very much.
	First Lieutenant Dwayne Page, 142nd Field Artillery.
	[The statement of Captain Desoto appears on p. 82]
STATEMENT OF FIRST LIEUTENANT DWAYNE K. PAGE

	1ST LIEUTENANT PAGE.  Good morning, Mr. Chairman Boozman and Ranking 
Member Herseth and Congressman Snyder, I would like to thank you for the 
opportunity to express my thoughts about the redeployment process, while I was 
attached to the 39th Infantry Brigade.
	My name is 1st Lieutenant Dwayne Page, and as a member of the Arkansas 
National Guard, I was appointed as the Fire Support Officer for Charlie Company, 
153rd Infantry that served in the heart of Baghdad during combat operations of 
Operation Iraqi Freedom II.  Operation Iraqi Freedom II started October 2003 and 
ended April 2005.  Once my unit moved into Baghdad, my company was attached to 
Task Force 1-9 Cav.  Although my unit was trained as a motorized infantry 
company, we performed the operations of a light infantry unit in neighborhoods 
surrounding the well known Haifa Street.  My job was to promote the progress of 
the coalition and provide the Iraqi people information regarding the process to 
successful elections, as well as teaching the benefits of democracy and freedom.  
I was also in charge of debriefing combat patrols and conducting investigations 
on possible insurgents operating in my Task Force area of operations.
	Just before we left the country, we had a mandatory cool down in Kuwait, 
which lasted about a week and a half.  We just sat there, just taking it easy.  
Once we arrived at Fort Sill, Oklahoma, we were escorted to a field house to 
reunite with our families and friends.  We were then released until the next 
morning.  The next morning we were given classes and counseling sessions which 
lasted the majority of the day.  This was about a five-day process.  I do 
remember the counseling stressing certain items, although I cannot recall the 
majority of the benefits and classes that were offered to us during the time of 
the post-deployment.  Like many soldiers, I knew my loved ones were waiting in 
the parking lot for me to complete the classes, so I found it very difficult for 
me to focus on the instructors and the classes given to me.
	The state and federal actions that were taken during the post-deployment 
were great.  I think the only thing was the timing.  We could have conducted 
some of those classes in Kuwait just before we came home.  As far as the 
benefits, most soldiers probably do not even know about all the benefits that 
are offered to them, just because of that situation.
	I believe a great way to inform the soldiers would be to roll all those 
benefits up on one sheet of paper along with a number that they could call and 
ask details about the benefits.  I remember when I went through, I received 
about 20 flyers, and I just put those flyers in a bag and I moved on out.  I 
really did not want to spend time sitting there looking at all the flyers.  I 
think it would have been easier if I could have just looked down at a list of 
benefits that was offered and have a number that I could call.
	We have had a couple of counseling sessions since we have been back, which 
is great and it shows that the state and federal is taking every action to make 
sure we are taken care of properly.
	Once my deployment was completed, I transferred back to my original unit, 
the 2nd 142nd Brigade, and I was asked if I would like to go to Fort Sill, 
Oklahoma to conduct my Captain's Career Course, which I accepted with honor.  I 
then came back to Arkansas and deployed to Fort Chaffee, Arkansas for Operation 
Katrina.  During Operation Katrina, my job was to provide logistical support to 
the hurricane victims.  Once my orders ended at Fort Chaffee, I was deployed to 
New Orleans, Louisiana to help clean up the damaged homes.  Once I completed 
those duties in New Orleans, Louisiana, I returned back home to Bentonville, 
Arkansas.  Sometime after New Years Day, I started working with the 2nd 142nd 
Brigade.  I have been there ever since.  Now I am preparing myself for a second 
successful mission in the Middle East.
	I know the United States and the State of Arkansas is doing everything in 
its power to get my life back on track and I truly appreciate the diligent work.  
But I think it would have been more effective if the presentations were given in 
Kuwait or two or three months after the deployment.  Additionally, I would 
suggest the development of a consolidated list for the benefits available.
	I would like to thank you all for allowing me to speak today on behalf of 
the American soldier and the Arkansas National Guard.  Thank you.
	MR. BOOZMAN.  Thank you.
	Next, we will hear from Master Sergeant Bryan L. Peters, 416th Air 
Expeditionary Group.
	[The statement of 1st Lieutenant Page appears on p.  88]

STATEMENT OF MASTER SERGEANT BRYAN L. PETERS

	MASTER SERGEANT PETERS  Chairman Boozman, Ranking Member Herseth, 
Congressman Snyder, it is an honor to be here on behalf of the Arkansas National 
Guard and the 188th Fighter Wing to discuss the transitional Aasistance for our 
members.  I will be kind of addressing you as both a deployed member and also 
someone who plays an integral role in the in-processing of our members when they 
come back from DAOR.
	In 2005, the 188th Fighter Wing deployed over 400 airmen to 16 different 
locations around the world.  When we deploy members, we deploy members in big 
groups of 300 or more and we also do it in small groups of two or three and even 
single individuals.  Most of our deployments are these small groups and single 
individuals. So when we prepare to provide our members transitional assistance, 
we go ahead and provide all our members the same service, no matter how big or 
small the group that may have deployed.
	As you may know, the Air Force has Aerospace Expeditionary Force 
rotations.  These rotations allow units to know that they are going to deploy 
every 15 to 18 months.  The unit also knows well in advance where they are going 
to deploy and how long they are going to be gone, so it makes it easier to 
prepare for the deployment.
	Since we deploy ever 15 to 18 months, it allows us to better provide 
transitional assistance to our members because we do not have lengthy periods of 
time in between deployments.  Also, since we deploy small groups and single 
individuals on an almost continual basis to fill the AEF requirements of active 
duty and other Air National Guard and Air Force Reserve units, we are constantly 
providing transitional assistance.  In deploying these small groups, it also 
allows more one-on-one interaction in discussing any transitional assistance 
issues.
	To start our transitional assistance for our members, we have meetings 
with all the key players that are going to provide information in the in-
processing.  This year, we had several members that had deployed in the past 
that we invited to the meetings to discuss what they felt redeploying members 
needed.  We also had several members who had just returned from deployments to 
bring their ideas on what redeploying members needed.  Once we developed our 
game plan, we had several more meetings to hone our processes.
	When our members returned home in big groups, we set up an in-processing 
line.  On this in-processing line, we have stations, including finance and 
medical sections.  When members process through the finance station, they fill 
out their travel voucher and decide whether or not they are going to take their 
accrued leave.  When members process through the medical station, they have 
blood drawn, they turn in their post-deployment questionnaires and their 
deployed medical records.  These post-deployment questionnaires are filled out 
in country before they come back home from the AOR, and they ask questions about 
how your health was while you were deployed, if you visited the medical section 
while you were deployed, if you had any non-combat related injuries or if you 
have any concerns that need to be addressed before you return home.  This allows 
our medical folks back home to prepare a little bit in advance for any issues 
that may arise.  They also fill out the paperwork to enroll in Tricare Prime 
once their orders end and they start their transitional medical care.  Family 
Readiness Group had a table set up where they had VA handouts.  We also provided 
our handouts -- we have a lot of civil service technicians and we provided 
handouts to them on their benefits for when their orders ended.  We also 
provided handouts concerning awards and decorations as well as DD-214s.
	I feel the biggest key to our in-processing for our transitional 
assistance was to allow our members to see their families as soon as they got 
off the plane.  I will be the first one to tell you, these Army guys sitting 
next to me, they had it a lot worse than we did.  They were kept away from their 
families.  I think that was the key.  I know for me when I got off the plane, to 
be able to see my family right off the bat was very important to me.  It allowed 
me to focus more on what benefits I was going to receive when I was briefed on 
those.
	Like I said, having been deployed this past summer to Karshi-Khanabad, 
Uzbekistan, I can tell you that our processes work.  I can also tell you that 
there is always room for improvement, no matter what the process is.  We try to 
treat our members the same, whether they go in big groups, come and go in big 
groups, or single individuals.  We have a standardized checklist and we make 
sure that everybody gets the same benefit briefings, whether they come in ones 
and twos and have to walk around, or if they come in big groups.
	Another advantage that we have in preparing for transition is Air Force 
MAJCOMs have clear guidance on leave and downtime, so it makes it a lot easier.
	Some of the issues we have are when our members are actually mobilized, 
which does not happen very often, our demobilization process takes too long for 
the members that want to be demobilized as soon as they come back home.  We did 
not have a doctor present to be able to ask individuals questions as far as what 
they had on their post-deployment questionnaires for any non-combat related 
issues.  I think we should have had some briefings instead of just handouts on 
like the VA benefits and stuff like that.  And I know in talking to Mr. Gray 
last night, I know some of the issues were the DD 214s, they need to find a 
quicker way to accomplish those.
	In closing, I would once again like to thank Chairman Boozman, Ranking 
Member Herseth, Congressman Snyder for allowing me to be here today, and I will 
feel free -- Senator Pryor, you too, sir, I did not see you walk in -- sorry 
about that.  I will be more than happy to answer any questions you may have at 
the conclusion.
	[The statement of Master Sergeant Peters appears on p. 89]
	MR. BOOZMAN.  Thank you, Master Sergeant Peters.
	I had the opportunity yesterday to visit with a Master Sergeant at the 
188th and I had the opportunity to fly in an F-16.  The Thunderbirds are going 
to be there for an air show this Saturday, and I would really encourage all of 
you to attend, it is going to be a great show.  But Colonel Dallas took me for a 
ride and as we got in the thing, he said you are going to get to see in the air 
what the Thunderbirds do.  I can only describe it as kind of -- it would be like 
going to a carnival, you know, and getting on the toughest ride you have ever 
ridden on and then riding it for 45 minutes.  It was great.  It was a lot of fun 
and I really do appreciate you all.
	We are joined by Senator Pryor.  Senator Pryor is very active in working 
on veterans' issues.  He just recently introduced a bill that would take and 
front-end some of the GI benefits so that they could take advantage of some of 
the fast-growing things that are going on in our economy, which is an excellent 
idea, and we certainly will be working with him on the House side to get that 
accomplished.  So we appreciate him and appreciate very much you being here 
today.
	SENATOR PRYOR.  Thank you.  You want me to say a word?
	MR. BOOZMAN.  Yes.
	SENATOR PRYOR.  Well, I want to thank all of you all for being here and 
all the public for being here.  But for all the men and women, active duty, 
Guard, Reserve, veterans, we just want to say thank you for your service.  It 
really means a lot to this state and certainly this country.
	I know that Congressman Snyder and Congresswoman Herseth will agree when I 
say that the veterans have a great friend in Chairman Boozman here.  John 
Boozman has really gone above and beyond.  We have talked in a lot of different 
contexts since we have both been in Washington about how to help veterans, and 
particularly the needs right now, given the fact that we have so many Guard and 
Reserve activated and they are coming back, we are making more active duty 
veterans every day it seems like.
	But again, thank you for doing this, Congressman Boozman.  You have shown 
great leadership and if I may, I would love to ask some questions when the time 
is appropriate, but thank you.
	MR. BOOZMAN.  Well, again, thank you for being here.  As you can see, this 
is a very bipartisan committee and when it comes to veterans, when it comes to 
taking care of the promises that we made in that respect, it is certainly not a 
partisan issue, it is something that we all agree is very, very important.
	Specialist Rothwell.

SPECIALIST JOHN H. ROTHWELL, III

	SPECIALIST ROTHWELL.  Good morning, Chairman Boozman, Ranking Member 
Herseth, Congressman Snyder and Senator Pryor.  Thank you for the opportunity to 
speak here today.  I will be sharing a brief description of my time in Iraq and 
of the transitional assistance I received since returning.
	After being out of the military for 13 years, I had the good fortune of 
being allowed to serve in Iraq with the 39th Infantry Brigade.  I was stationed 
at Camp Taji, just north of Baghdad.  My first six months there, I worked in the 
Operations Center and was a Company Commander's driver.  When I came home for my 
mid-tour leave, Congressman and Mrs. Boozman were kind enough to have dinner 
with me and my family.  In fact, many people showered me with more attention 
than I could have imagined, and I returned to Camp Taji recharged.
	The last half of my tour, I served in a Counter Improvised Explosive 
Device Platoon.  Our job was to search the streets and highways for roadside 
bombs.  We were honored to patrol downtown Baghdad the day of the historic first 
election.  I would like to mention now that my friend Lyle Rymer was killed 
while bravely setting up protection for that election. Lyle was a good worker, 
calm under pressure, quick with a smile.  At one point during the election day, 
my platoon and I were securing an area around a bomb placed by terrorists near 
another voting site.  We were all still in much pain and frustration, as we are 
today, over the loss of Lyle Rymer.  An Iraqi kid that day came over to me and 
wrapped his arms around my legs and said, "Hey, Mister, I love you."  The Iraqi 
children frequently brought joy to our day and helped remind us why we were 
there. 
	When I returned to the United States, I attended many briefings and was 
very impressed by all the assistance being offered.  But I did not accept much 
help, because my heart was set on returning to Iraq.  After being home a couple 
of months, I began requesting that I be allowed to return to duty.  Soon, I was 
picked up by Bravo Battery 1st Battalion of the 142nd Field Artillery and we 
began training at Fort Lewis, Washington.  In some ways, the training at Fort 
Lewis was more rigorous than actually being in Iraq.  I was still banged up a 
little bit from my recent tour, but did not want to admit that I was having 
problems.  Eventually, my difficulties reached the threshold that the leaders of 
Bravo Battery, although they were under-manned, graciously allowed me to stay 
behind and get help.
	I was then enrolled in a new community-based healthcare organization known 
as CBHCO.  This allowed me to come home and be seen by local healthcare 
providers.  Also, many of the people who administrate the CBHCO program at Camp 
Robinson, Arkansas were with me in Iraq and I will always have a special bond 
with them.  This program has ensured that I get comprehensive medical care.  My 
specific problems have been rapidly identified and treated.  If not for CBHCO, I 
would have had to remain at Fort Lewis 2500 miles from my family for six months.  
Having the loving support of family and friends has shortened the recovery 
process and helped me to heal in many ways.  Also, I believe this may be of 
benefit to the military because I am living at home and the Army right now is 
not having to house me and feed me and provide other housing benefits.
	Before CBHCO, I was really fearful that I would be discharged from the 
military, but now I believe that I have more service ahead and I feel that this 
program has saved me.
	My transition from combat to civilian to training in just a few months' 
time was stressful, but the Arkansas Army National Guard has my best interest at 
heart and in time I believe that I will be allowed to return to duty.  I know 
that I went into Iraq thinking one thing and left thinking another.  For the 
most part, the more I got to know the Iraqi people, the more I understood them 
and cared for them.  I am thankful for the opportunity to serve and to be a part 
of something larger than myself.
	Chairman and Committee Members, thank you again for hearing my testimony 
today.
	[The statement of Specialist Rothwell appears on p. 94]

	MR. BOOZMAN.  Thank you very much.  Let me ask a couple of questions real 
quick.  Thank you for your testimony and again, we really appreciate you being 
here.
	A couple of you mentioned a need to present post-deployment briefings 
earlier.  Would another option be to integrate briefings on VA and employment 
benefits into the normal drill training cycle and then use what is now TAP as a 
refresher?
	Do you understand what I'm saying?  In other words, just in the normal 
course of training, set aside some time at some point.  I know in visiting with 
folks a lot of times when you hear about these benefits is when you're 
recruited.  They do not come up again until this.
	Do you have any comments, any of you all, about that as a possibility?
	CAPTAIN DESOTO.  Sir, I believe it would be helpful, especially like was 
mentioned before, during the regularly scheduled drill periods following a 
deployment.  I think it would be helpful as far as reminding the soldiers and 
advising them again a second or third time on what those benefits are, what 
contact information can be given to them as far as reaching out for any 
assistance they need.
	MR. BOOZMAN.  Okay.
	1ST LIEUTENANT PAGE.  I agree with that.
	MR. BOOZMAN.  Good. And then you all mentioned that actually doing it 
prior to getting back.  I know there is tremendous pressure, I had the 
opportunity to go be part of the service when folks were coming back and how 
moving that is.  You know, you have been waiting for a long time and literally,  
children are born that have not been seen.  The tremendous want, as you 
mentioned -- I mean literally you are getting your physical and the family is 
outside the door.  So your idea is to actually do it in theater before you -- to 
start it there? 
	CAPTAIN DESOTO.  Yes, sir.  The point I was trying to make was that I 
think that by starting it earlier, it would allow soldiers more time to become 
familiar with TAP, to know what some of their benefits are, allow them to 
formulate questions, allow their families to see the program, become familiar 
with it as well.
	MR. BOOZMAN.  Okay.  Would it be helpful to go -- and again, I am just 
throwing out stuff.  Would it be helpful to go home for a couple of days and 
then come back and do it?  The other pressure I know you have got is to get back 
to work; get back in your normal -- would that be something that would be 
beneficial or not, or would that cause more problem than it would solve?
	1ST LIEUTENANT PAGE.  I think that would be great.  Most of these guys 
that are over there, for the whole year, they have been living on adrenaline 
rush and their first concern is just getting back home and being able to relax.
	MR. BOOZMAN.  How about -- and this is for the whole panel, whoever -- are 
any of you familiar with members in your units that have owned small businesses, 
as to how that has affected things? 
	CAPTAIN DESOTO.  No, sir, I did not have any in my unit.
	1ST LIEUTENANT PAGE.  I know of one soldier that had his own business.  I 
know he just had to put it on hold, he had some people working for him and he 
just -- it was not growing as much as he wanted it to because he was not there, 
he was not able to help push it.
	MR. BOOZMAN.  Thank you very much.
	Ms. Herseth.
	MS. HERSETH.  Thank you, Mr. Chairman.  Thank you all for your testimony. 
	Just to continue along this same line as Chairman Boozman, when we are 
talking about how important this transition is and the timing of it, now for 
both Captain Desoto and Lieutenant Page, were you in the same -- were you both 
together during your tour in Iraq?  Did you come back at the same time? 
	CAPTAIN DESOTO.  No, ma'am, we were only together for part of the actual 
deployment once we reached Iraq.  We were nearby, we were both in the City of 
Baghdad, but we lived at different bases and patrolled different areas.
	MS. HERSETH.  So when you were coming back, I think that, Captain Desoto, 
you mentioned that you started getting some information on the transition 
assistance about a month prior to returning home and then, Lieutenant Page, you 
mentioned that you were in Kuwait for about a week and a half for a cool down 
period, but were you receiving any information at that point on any of the 
transition assistance?
	1ST LIEUTENANT PAGE.  I do not recall receiving any information at that 
time.
	MS. HERSETH.  Okay.  But that leads to your recommendation of make some 
other use of time.  In addition to the cool down period in Kuwait, of giving us 
this information so that when we do get back home, you know, just in terms of 
the sheer amount of the information you are receiving as well as not the 
distraction.  It may be a distraction for some or a better focus for others, as 
Master Sergeant Peters was describing, when your families are right there. 
	1ST LIEUTENANT PAGE.  Right.
	MS. HERSETH.  So I guess my next question is, in addition to integrating 
this information earlier, before you are returning home, and making use of some 
of that time, should the family members, do you think, be involved either over 
the course of the deployment in getting some of this information or sitting in 
on some of the briefings?  Perhaps they do, when you were at Fort Sill, perhaps 
the family members, rather than waiting outside, are a part of the classes.  Do 
you think that would be a good idea?
	1ST LIEUTENANT PAGE.  It could be good and it could be bad.  If you have 
got a family member sitting in there and you have an opportunity to talk about 
some of the stuff you saw, you may want them to realize what you have been 
through, but at the same time, you may not want them to know, you know, exactly 
what you saw.  So it could be a good or bad thing.
	MS. HERSETH.  So it would depend perhaps on the particular class.  If it 
was some of the counseling types of sessions with other soldiers and what to 
expect in re-integrating with family versus some of the information about which 
benefits to which you may be entitled and how that affects the spouse or family.
	1ST LIEUTENANT PAGE.  Uh-huh; yes, ma'am.
	MS. HERSETH.  Okay.  What about follow up.  I know the Chairman asked, as 
he was throwing out some ideas, the idea of integrating some of this information 
during some regular drill sessions with TAP as a refresher.  And then I think 
one of you had suggested, you know, when you get that information, then in the 
periods after deployment, right, Jason, of just integrating that?
	CAPTAIN DESOTO.  Yes. 
	MR. BOOZMAN.  So I think both of those ideas emphasize the importance of 
follow up and so could any of you maybe talk a little bit about what kind of 
follow up, whether it be medical needs, whether it be additional information 
about benefits, I think Jason, in your written testimony you talked about how 
the chaplains have been very proactive.
	CAPTAIN DESOTO.  Yes, ma'am.
	MS. HERSETH.  And Chairman Boozman and I have had hearings in D.C. where 
we have emphasized to various officials of the VA the importance -- or the 
Department of Labor, the importance of being proactive.  So can any of you maybe 
elaborate a little bit on your thoughts of the importance of follow up for 
either medical, physical or mental health needs as well as the follow up of 
additional information as to which benefits you may be entitled?
	CAPTAIN DESOTO.  Yes, ma'am.  One of the examples I can give you as far as 
the importance of follow up like you were speaking, we had been told when we 
received our counseling and our briefings before we completed our deployment 
that generally most soldiers found that about the six month period after being 
reintegrated with their families is where they had the most difficult times.  
Sure enough, I know that through some of my soldiers in my unit that deployed 
with me and in my own experience, that that was probably one of the most 
difficult times, is after you have come back, you have had a small period of 
adjustment, reintegration with your family.
	And about a month ago, we participated in a post-deployment health 
assessment which was very beneficial.  We were able to speak one-on-one with 
healthcare providers, VA -- you know, asking us if we needed any additional 
assistance.  And like as you mentioned, the chaplains before, they are a 
constant ready source for everybody in the unit.  And I know that all the 
soldiers in my unit that deployed with me have all taken advantage of them, 
every single one, whether it is just a one time -- just speaking with the 
chaplains one-on-one or doing regular type counseling with them.
	MS. HERSETH.  Specialist Rothwell, could you elaborate on the community 
based health care organization?  Do you know, or perhaps the Chairman or someone 
else can enlighten me, is this an Arkansas National Guard initiative with the 
State of Arkansas, or is this -- this has not been something that is a matter of 
federal policy that we have integrated I do not think.  Are you aware?
	SPECIALIST ROTHWELL.  Ma'am, I first found out about it at Fort Lewis and 
my apologies, I do not know the details to the program.
	MS. HERSETH.  Okay. 
	Specialist Rothwell.  There are people here that, administrators of the 
program, Colonel Clark is here and First Sergeant Wilson is here.  I believe 
they have those answers, ma'am.
	MS. HERSETH.  Okay,  maybe I can -- 
	MR. BOOZMAN.  Sure.
	COLONEL CLARK.  Good morning, Congressman Boozman -- 
	MS. HERSETH.  Do you want to come up to this microphone maybe?  Thanks.
	COLONEL CLARK.  My name is Colonel Nancy Clark and I am the Case 
Management Supervisor for the Arkansas CBHCO program.  And what this is, Ms. 
Herseth, is an initiative that was begun at the end of 2003 whereby soldiers, 
Reserve Component soldiers, who were not ready to be discharged after they have 
returned from either OIF or OEF, can -- and still have medical problems that 
need to be addressed, they can come back and after they have been treated for a 
period of time, usually at a medical treatment facility like at Fort Hood or 
Fort Sam, then if they meet criteria, they can come into the CBHCO program, go 
home and live, receive their care in their local area and they can work in an 
armory if they are able to, whatever their medical profile allows them to do.
	This is a nationwide program.  There were five community-based healthcare 
organizations that were started.  Arkansas was one of those, California, 
Virginia, Massachusetts and Florida.  And these programs were started and grew 
so rapidly that they enlarged it to eight -- added three more, Wisconsin -- I 
think they added Virginia, there was one originally in Wisconsin and they added 
Alabama and I cannot think of where the other one is.
	But anyway, this program has provided, such as for Specialist Rothwell, an 
experience where they do not -- as he said, they do not have to stay on 
installations while they are receiving weeks and what can run into months of 
medical care.  And so it has been an ideal situation to allow the Reserve 
Component soldiers the opportunity to be reunited with their families and get 
their medical care.
	MS. HERSETH.  Thank you very much, I appreciate the additional information 
because it sounds like a good idea to integrate everywhere.  I am glad that it 
has expanded, hopefully it can expand so that all states are covered, but I 
think given the special relationship of Guard and Reservists to their local 
communities, separate from perhaps, you know, being at a base, I think it is 
important to be close to family, local healthcare providers that may know the 
service man or woman from a number of years back.
	COLONEL CLARK.  Well, yes, that is true, but let me clarify, the 50 states 
are covered.
	MS. HERSETH.  All 50 states are covered?
	COLONEL CLARK.  All 50 states are covered and Puerto Rico.  Arkansas has 
seven states, we cover Louisiana, Texas, Arkansas, Oklahoma, Missouri, Kansas 
and Nebraska.  And each one of those CBHCOs has a number of states that they are 
responsible for and the soldiers come and in-process at our headquarters and 
then go back to their home to live.
	MS. HERSETH.  But it is specifically designed for Selected Reserve 
soldiers?
	COLONEL CLARK.  National Guard and Army Reserve, correct.
	MS. HERSETH.  Okay.
	COLONEL CLARK.  And they are active duty, they are Title 10 while they are 
on the program.
	MS. HERSETH.  Right.  So I just want to make sure -- and I do not expect 
you to have the information, I want to make sure that all states are covered, 
you know, within one of these regions, that all the adjutants general, you know, 
have had all the information available to be able to fully utilize this new 
program that has developed, because if it has expanded that rapidly, I just want 
to make sure it has been done in such a way that all states are actively 
participating if they see the need, for some of their soldiers.
	COLONEL CLARK.  Well, I hope so.  I know that there is a liaison officer.  
I do not know if all states have those through their Guard, their state Guard 
TAG office, but we have one in Arkansas, I know Missouri does, Kansas.  And so 
hopefully -- it may not be as well known as we would like for it to be, it is 
very dependent on the medical hold over case management system at the NTS.
	MS. HERSETH.  Thank you very much.
	Thank you, Mr. Chairman.
	COLONEL CLARK.  You are welcome, thank you. 
	MR. BOOZMAN.  Is it paid for by the state or DoD?
	COLONEL CLARK.  Oh, DoD.  I believe the money came originally through 
FORCOM, we were under FORCOM in the beginning and just this January transitioned 
over into MEDCOM and so we're under MEDCOM now.
	MR. BOOZMAN.  Thank you.
	Mr. Snyder.
	MR. SNYDER.  Thank you, Mr. Chairman.  Just one question to Captain 
Desoto.
	When you all were filling out all these forms and doing your screenings 
and they were asking all the questions, was there scuttlebutt going on amongst 
other folks, do you think, or that you heard of, was there a sense among some 
people I think I am just going to slide over this, I am not going to say I am 
having a problem with my knee or I am not going to tell them about the diarrhea 
I am still having, because I would just as soon not be delayed here on any kind 
of medical hold?  Was there any kind of -- did you get any kind of sense that we 
were getting some inaccurate information on some of that history taking because 
it was occurring before folks had been released to go home and see their family?
	CAPTAIN DESOTO.  In some cases, sir.
	1ST LIEUTENANT PAGE.  Yes, sir.  I feel like -- I know my company really 
stressed to get everything notarized for the benefits.  So I fully believe 
everybody gave their honest assessment.
	MR. SNYDER.  Thank you, Mr. Chairman.  I think that is all I will ask at 
this time.
	MR. BOOZMAN.  Senator Pryor.
	SENATOR PRYOR.  Thank you, Mr. Chairman.
	One of the things that we have really been working on on the Senate side 
is trying to make sure that the quality of life of our Reserve Component, the 
Guard and Reserve, is where it needs to be.  And as a result of that, we have 
been working on some legislation over there.  One is something that we just 
filed in the last couple of weeks in the Senate that I want you all to know 
about, and I would like to get your thoughts on it.  And that is Senator Conrad 
Burns of Montana and I have a bill that we are calling the VET Act.  It is the 
Veterans Employment and Training Act.  And one thing we found, Mr. Chairman, is 
when you look at the numbers that come out, the economic numbers like, for 
example, unemployment, that in certain segments of our Guard and Reserve 
demographics for the country, unemployment is twice as high as it is in the 
regular population.  I think there are some practical reasons for that. 
	So one thing Senator Burns and I are trying to do is -- well, actually the 
Department of Labor has already identified 14 areas that are going to have high 
job growth in this country over the next few years.  In fact, one of those is 
trucking, which is near and dear to our heart up here in northwest Arkansas.  We 
have a big trucking presence.  But there is a driver shortage nationwide.
	So what Senator Burns and I are doing is trying to match up training 
through the VA, job training, through the program that is already on the books 
called the -- I am drawing a blank on the name right now.  It is the Accelerated 
Payment Program, which is part of the Veterans' Training Employment Service.  
But the Accelerated Payment Program basically would allow people to train for 
jobs where there is a need according to the Department of Labor.
	So just in your experience and in talking to your friends and people you 
served with, are they having problems getting jobs and readjusting back into the 
work force?
	CAPTAIN DESOTO.  Initially, sir, I believe there were some complications 
with soldiers.
	SENATOR PRYOR.  Yeah.
	CAPTAIN DESOTO.  Especially ones who came back and did not have a job to 
go to.  I know of several soldiers in my unit that took advantage of the 
benefits that were briefed to us as far as assistance in finding jobs.
	SENATOR PRYOR.  Good.
	CAPTAIN DESOTO.  I know of two for sure just within my company that were 
placed.  And, sir, to be honest, any expansion of that area of helping soldiers 
find jobs once they have returned from active duty would be very, very 
beneficial.
	SENATOR PRYOR.  Any other comments?
	1ST LIEUTENANT PAGE.  I found the biggest problem a lot of soldiers had 
when they come back looking for a job was they had a lot of expectations once 
they come back, -- 
	SENATOR PRYOR.  Right.
	1ST LIEUTENANT PAGE.   -- they expected that they could just go right into 
a job.  But it was a little bit harder than that.
	SENATOR PRYOR.  I know that employers in this area for sure, some of the 
larger employers in this area, have really worked -- you know, bent over 
backwards to try to help folks in the Guard and Reserve.  I know that has 
happened nationwide as well.  So anyway, as that progresses, we will keep 
everybody posted and try to get that through the Senate.
	Another thing that we have done in the Senate that has actually passed the 
VA Committee in the Senate, but has not come out on the floor yet and has not 
gone to the House yet, is the Veterans' Benefit Outreach Act.  And what we find, 
the VA tells us through their statistical numbers and their analysis, is that 
there is about 600 veterans nationwide that do not access various programs that 
are available to them.  They may not be doing that for a reason, but we also 
suspect that one reason they are not is because sometimes veterans do not 
understand completely what is available to them. So we are trying to be more 
proactive and force the VA to be more proactive to try to market its services 
and programs there.  And I am sure that you all have had stories of people who 
probably were entitled to receive certain benefits that they have earned, but 
nonetheless, they just did not know that was the case.  So we are working on 
that.
	Anybody have a comment on that before we go?  Yes, sir? 
	SPECIALIST ROTHWELL.  Senator Pryor, if I may mention, we had the 
opportunity to visit with General Haltom last night, and he had an idea to 
change the transition a little bit that sounded really good to us.  Whereas now 
we have a compressed briefing on top of briefing and we are really wanting to 
see our families and then we are just cut loose -- 
	SENATOR PRYOR.  Right.
	SPECIALIST ROTHWELL.   -- he mentioned that perhaps we could stay on 
active duty -- and forgive me if I get the details wrong, sir.  I believe the 
concept was though, Senator and Committee members, that we stay on duty for an 
extended period of time, we go home to our families and then at intervals we 
come in and we have briefings that could be more relaxed and more thorough.
	Thank you.
	SENATOR PRYOR.  That does seem to be a common sense approach on that.  I 
would be glad to listen to General Haltom either today or later whenever he 
wants to talk about that, because I think that has value in considering that. 
	Basically another thing that you are entitled to receive, again because 
you have earned it through your service, is educational benefits.  I think that 
it is hard oftentimes for people in the Guard and Reserve to do that.  Many are 
working at least one full time job, maybe more, they have weekend commitments, 
they either have to go down and respond to Katrina or they have to go to 
Afghanistan or Iraq -- I mean, there are a lot of tugs on their schedule and 
sometimes it is hard to find that block of time where they can continue their 
education.
	Can you all give us any advice on how we can improve that and how we can 
work with you all better and try to make those benefits more accessible and 
useable?
	1ST LIEUTENANT PAGE.  What I said in my testimony was that I thought it 
would be a good idea to roll all those benefits up on just one single sheet of 
paper.  I know it would be pretty difficult to get all the organizations 
together to do all that, but I think you would get the soldier's attention a lot 
better that way, and having a number he could call to ask about the details that 
that benefit offered to him.  Instead of having a pamphlet with all those 
details, it is just easier for him to see his whole list of benefits.
	SENATOR PRYOR.  Okay. 
	Mr. Chairman, I think that is all I have right now.
	MR. BOOZMAN.  Ms. Herseth.
	MS. HERSETH.  If I could just follow up on Senator Pryor, since we have 
you here, since you have been so kind to testify today, some of the initial 
questions were focusing on the transition assistance, but I am pleased that 
Senator Pryor also directed his questions to you about the various benefits.
	And one of the things that we are exploring, not only today, but that we 
have had other hearings on, is the education benefits to which you are entitled.  
And if you feel comfortable either sharing with us from your experience or from 
the experiences of some of your fellow soldiers in the National Guard, perhaps 
you could offer us some insight as we look to modernize this benefit, about 
whether or not you have had discussions about the rate of benefit compared to 
rising tuition costs.  So in addition to some of the just logistical 
difficulties, given deployments, given other responsibilities of finding that 
block of time to pursue the degree, have you had any discussions as it relates 
to concerns about how much the benefit is compared to tuition costs and the 
flexibility or inflexibility of the benefits, which we are trying to address in 
different ways with Senator Pryor's legislation, some companion legislation on 
the House side, to make that flexible.  Do any of you care to share with us some 
thoughts about the benefit, how far it goes in terms of its purchasing power for 
the types of degrees you would want to pursue or different types of programs 
where, if it were more flexible, would be more suitable to your interest?
	CAPTAIN DESOTO.  Ma'am, I do not at this time.  I was looking at pursuing 
my master's degree and seeing what benefits would be available, but with our 
upcoming -- for Lieutenant Page and myself -- our upcoming mobilization to go 
back in support of Iraqi Freedom, those have been postponed until we get back.
	MS. HERSETH.  But you are familiar with the new 1607 benefit?
	CAPTAIN DESOTO.  No, ma'am, not at this time, not yet.
	MS. HERSETH.  This is a new benefit that Congress enacted to increase the 
amount to which our service members in the Guard and Reserve are entitled to 
finance other higher education, based on the period of your deployment.  So we 
will want to make sure, given that if you are getting ready for your second 
deployment, that you are likely going to be looking at -- was your first 
deployment a year?
	CAPTAIN DESOTO.  Yes, ma'am.
	MS. HERSETH.  Okay, so your next deployment is going to be another year?
	CAPTAIN DESOTO.  Yes, ma'am.
	MS. HERSETH.  So you are going to be entitled to the highest level under 
this new program. So we would hope that you will -- even though your master's 
plans are on hold now, that you would fully utilize that benefit to pursue your 
master's degree and make sure that because it is such a new program and we will 
be talking to some of the other panelists a little bit later here this morning 
about it, that they are being utilized because the information is being 
facilitated effectively to the soldiers who are entitled to that new benefit.
	Thank you Mr. Chairman. 
	MR. BOOZMAN.  Thank you. 
	Dr. Snyder, do you have any other questions? 
	MR. SNYDER.  Nothing further, Mr. Chairman.
	MR. BOOZMAN.  Thank you. 
	SENATOR PRYOR.  Mr. Chairman, I did have one more, if I could.
	MR. BOOZMAN.  Senator Pryor.
	SENATOR PRYOR.  I am sorry, I think it was Mr. Page who was talking to me 
about not getting all the information at one time.  As I understand it, on the 
active duty side, when they come back from deployment, they get about a 30-day 
period, 30-day window, to kind of decompress, to be with their families and get 
a lot of flex time during that time.  To me, it would seem beneficial if you all 
had that option as well. I know you may have some economic pressure because you 
may need to get back to your jobs, whatever.  But it would seem to me that that 
would be a good thing for us to explore, to see if that would be workable for 
the Reserve and the Guard Component.  Do you all have any comments on that, 
after you come back from deployment, have say 30 days to decompress, have a lot 
more free time? 
	MASTER SERGEANT PETERS  Sir, I can comment as far as on the Air National 
Guard side of the house.  I said in my testimony, the MAJCOMs have specific 
guidance and it is all based on the number of days deployed, and it varies for a 
MAJCOM.  We fall under Air Combat Command, so on the air side 120 days is about 
a max deployment.  And on the Air Guard, it can be even less.  But on the ACC 
side of the house, if you are deployed for 0 to 41 days, you do not get any per 
se downtime.  If you are deployed for 42 to 83 days, then you get seven days.  
And 84 days or more, you get 14 days.  So you are getting two free weeks there 
that you just kind of relax, have downtime.  But then you also are getting to 
use your leave too, so depending on how long you are gone, you could have 
anywhere from three weeks to a month.  And it works really good for us, like I 
said, for a cool down period.
	SENATOR PRYOR.  That is in the Air Guard?
	MASTER SERGEANT PETERS  Yes, sir.
	SENATOR PRYOR.  Is that the same with the Army Guard?
	1ST LIEUTENANT PAGE.  After all these procedures have taken place, the 
transition assistance, we do get time off before we go meet up again.  The thing 
is that there are procedures that have to be taken once you come back.  I mean 
you just have to do it.  But when we come back, we come back to a base that is 
four to seven hours away from home, so it is hard to release those troops from 
there and then have them come all the way back another seven hours.
	SENATOR PRYOR.   Okay.  Thank you, Mr. Chairman.
	MR. BOOZMAN.  Thank you.
	I want to thank the panel for being here.  You did a great job, your 
testimony is very, very helpful and we want to thank you for your service to 
your country.  You did a great job representing your units, so again, thank you 
very much for being here.
	CAPTAIN DESOTO.  Thank you, sir.
	MR. BOOZMAN.  Okay, let us have the next panel then.
	While that group comes up, I want to -- as I look out, I see a bunch of 
our VSO representatives here and I just want to thank you all for all that you 
have done in pushing things forward.  Without your help, certainly a lot of what 
we get done on the Committee just would not happen.  So thank you very much, 
thank you for being here.
	Our next panel consists of Brigadier General Larry Haltom, Deputy Adjutant 
General, Arkansas National Guard; Mr. Don Watson, Acting Deputy Regional 
Administrator of Dallas Region, Veterans' Employment and Training Service, U.S. 
Department of Labor; Mr. Doyle W. Batey, Deputy Director, Arkansas Department of 
Veterans' Affairs; Ms. Sara Patterson, Education Program Support Manager, 
Arkansas State Approving Agency for Veterans' Training; Mr. Ron Snead, Deputy 
Director, Arkansas Department of Workforce Services and in addition, Mr. William 
Fillman, Jr., Director of Central Area Office, Veterans' Benefits 
Administration.
	Thank you all for being here.  Let us start with you, General.

STATEMENTS OF BRIGADIER GENERAL LARRY HALTOM, DEPUTY ADJUTANT GENERAL, 
ARKANSAS NATIONAL GUARD; DON WATSON, ACTING DEPUTY REGIONAL ADMINISTRATOR, 
DALLAS REGION, VETERANS' EMPLOYMENT AND TRAINING SERVICE, U.S. DEPARTMENT OF 
LABOR; DOYLE W. BATEY, DEPUTY DIRECTOR, ARKANSAS DEPARTMENT OF VETERANS' 
AFFAIRS; SARA PATTERSON, EDUCATION PROGRAM SUPPORT MANAGER, ARKANSAS 
STATE APPROVING AGENCY FOR VETERANS' TRAINING; RON SNEAD, DEPUTY DIRECTOR, 
ARKANSAS DEPARTMENT OF WORKFORCE SERVICES and WILLIAM D. FILLMAN, JR., 
DIRECTOR, CENTRAL AREA OFFICE, VETERANS BENEFITS ADMINISTRATION

STATEMENT OF BRIGADIER GENERAL LARRY HALTOM

	BRIGADIER GENERAL HALTOM.  Mr. Chairman, Congressman Herseth, Congressman 
Snyder, Senator Pryor; thank you for the opportunity to represent the Arkansas 
National Guard here to you today.
	The location of this hearing we think is most appropriate.  This is the 
home of Battery C, 1st Battalion, 142nd Fires Brigade.  This unit deployed for 
Iraq on the 18th of March, they have just left after about three months at the 
mobilization station preparing for their mission.  They will spend an additional 
12 months in places that may place them in harm's way in support of Operation 
Iraqi Freedom.  At present, the Arkansas Army and Air Guard has over 900 members 
serving our country in various locations, primarily in the Middle East.
	Since 9/11, over 8500 Arkansas Army and Air National Guard members have 
been mobilized in support of missions such as airport and key asset security; 
Multi-National Task Force, Sinai;  Operation Noble Eagle; Operation Enduring 
Freedom; and Operation Iraqi Freedom.  We recently expended over 120,000 man-
days in response to Hurricanes Katrina and Rita.  Approximately 85 percent of 
our members, in fact 87 percent of the Army members and about 75 percent of the 
Air members, have been mobilized since September 11.
	Transition assistance is critically important in our efforts to care for 
our service members.  The effectiveness of any transition assistance program 
holds significant implications, not only for the service member and their 
families, but also for the long-term health of our organization.  This in turn 
impacts our ability to support future national, local and state missions.
	A successful Transition Assistance Program cannot be just an after the 
fact process, as we have kind of alluded to in previous testimony.  We have 
learned it must begin with briefings and actions taking place upon unit alert 
and mobilization.  Even before alert, we need to be educating our service 
members on what is available.  Upon mobilization, we conduct a series of 
readiness processing briefings and training sessions to ensure the members are 
ready and qualified to enter for active federal service.  We try to identify and 
resolve issues that may have the potential to become problematic for the service 
member or their family.
	While our service members are deployed, we continue to stay in touch and 
provide assistance where possible.  Through our Family Support Program, we have 
Family Assistance Centers established across the state.  The FACs are there to 
provide guidance, assistance and support to the family members of our deployed 
troops.  Family support workshops are also conducted for spouses and family 
members, in order to educate them on what to expect from their loved one when he 
or she returns home.  When soldiers and airmen know their families are taken 
care of, they are better able to focus on their mission in completion and 
return.
	As the deployment in country nears the end of rotation, service members 
are provided training information on reacclimating back into civilian life.  
	Upon arrival at the demobilization center in the U.S., the service member 
receives a brief welcome home ceremony, which has already been mentioned here 
earlier, and the demob process begins almost immediately.  Normally they get a 
day or so with the family before this actually begins, but it begins almost 
immediately.
	The demob process is critical, due to some benefits requiring that a 
member apply before he or she leaves active status.  Many staff members from the 
Arkansas Guard, from active duty installation, representatives from the VA, 
Department of Labor and other agencies work in this educational process as the 
soldier is demobbing. We do numerous screenings, briefings and enrollments to 
prepare the service member for separation from active duty and reintegration to 
civilian life.  As has been mentioned earlier, there is sometimes not a lot of 
attention paid to those because of the desire to be released and get with the 
family immediately and spend some time with them. 
	After the service members have cleared all the requirements from the demob 
center, they return home to their families, but the demob process does not end 
here.  The next phase is back at home unit and consists of assistance for 
problems arising from or aggravated by the mobilization.  Married service 
members complete a marital assessment and a voluntary marriage 
education/enrichment workshop is offered for those who wish to participate.  
During this period, and for some months afterward, the chain of command actively 
seeks to assist our service members who have displayed higher than normal levels 
of stress, those on which we receive reports that they are having problems in 
their families.  Chaplain support during this period is vital.  In fact, 
throughout the whole period, the chaplain support is vital to assist service 
members with reintegration with their families and aid them in returning to 
premobilization life.
	We have recently hired a State Benefits Advisor to assist with the 
Transition Assistance Program.  This advisor is there to kind of bring all these 
myriad of benefits together.  This advisor, along with all benefits providers 
and a multitude of service organizations, are there to work with the service 
member to ensure they are aware of all benefits available.   The benefits 
advisor we think will be an incredible asset in assisting with future 
mobilizations and demobilizations.
	Much has been done by Congress over the past to provide the Reserve 
Component members Tricare benefits.  The Transitional Assistance Management 
Program is a good example of this, which provides coverage to 180 days for all 
service members as they return from a deployment.  There is Tricare Reserve 
Select, where service members can purchase Tricare coverage at a very reasonable 
rate, one year for every 90 days of mobilization.  And there is premobilization 
Tricare coverage that is offered in advance of a mob.  These have all been a 
tremendous help; however, there are still some challenges.
	Short-notice mobilizations often deprive the family and soldier of using 
the advance Tricare benefits.  
	There are not enough Tricare providers in Arkansas, and I suspect that is 
a nationwide problem.  We believe that possible -- and I do not know what kind 
of incentives -- but incentives should be offered for physicians and medical 
facilities to accept Tricare, to become Tricare providers. 
	Under TAMP, the 180 days of Tricare coverage after a mobilization ends, 
does not include Tricare Prime Remote or Tricare Prime Remote for Active Duty 
Family Members.  And that is sometimes a problem.
	The Tricare dental program administered by United Concordia has two price 
schedules, one for active duty and one for Reserve Component members.  We feel 
that they ought to be the same.  The Reserve Component price is more than double 
the active price.  Dental readiness is the number one disqualifier when we are 
mobilizing soldiers.
	In March of 2005, the Assistant Secretary of Defense for Health Affairs 
directed that Post-Deployment Health Reassessments be conducted for all soldiers 
that are deployed for more than 30 days in support of contingency operations.  
These assessments are ideally conducted three to six months post-deployment, 
which is the most likely time frame for issues to emerge.
	We were very fortunate to have our 39th Infantry Brigade Combat Team 
selected as the pilot program for the National Guard.  The 39th IBCT began the 
assessments in November of 2005.  We have experienced a 50 percent referral rate 
from these assessments, with 20 percent being for medical issues only, eight 
percent being for mental health issues only, and 21 percent having both medical 
and mental health issues that needed to be referred.  Referrals were primarily 
worked through the VA Hospital, VA satellite clinics and the Vet centers.  If no 
VA system clinic was available within 50 miles, then the soldier was referred 
through Tricare.
	It is important to remember that this was a pilot program for the entire 
Army National Guard.  The VA has worked well with us and has made adjustments 
along the way and the program is getting better.  We believe, however, there are 
some areas that could be improved:
	Funding for temporary case managers and referral managers would greatly 
improve the program, as caseloads have exceeded our available manpower.
	The ability to place soldiers on orders to go to their appointments 
instead of split training them away from their unit drill periods.
	We recommend that PDHRA referrals be worked through the Military Medical 
Support Office instead of the VA.  As I said, VA has worked great with us, but 
that is not our normal process.  So our standard system is to use this Military 
Medical Support Office.  The referral system for soldiers should not differ from 
normal operating systems.
	We believe that conducting the PDHRA is the right thing to do and 
obviously with the current referral rate, it is a vital program.  Reserve 
Component members mobilized in past wars and conflicts were left to deal with 
these deployment problems on their own.  The PDHRA provides a viable means for 
these soldiers to be evaluated and receive needed treatment.
	Community-Based Health Care Organizations were established late 2003, 
early 2004 in an effort to expeditiously and effectively evaluate and treat 
Reserve Component soldiers that have incurred medical problems in the line of 
duty while mobilized for the Global War on Terrorism.  I think it at least in 
some part resulted from a perceived disparity of treatment at the active duty 
medical facilities at that time.  There are eight CBHCOs providing case 
management and command and control for these soldiers while they reside at home, 
receive local medical care and perform limited duty in local military 
facilities.  The care is provided using Tricare, VA facilities, and military 
medical treatment facilities.
	The CBHCO in Arkansas has already been discussed a little bit.  It is 
responsible, as was stated, for the mid-southern states -- Arkansas, Oklahoma, 
Louisiana, Missouri, Texas, Nebraska and Kansas.  Soldiers in process at Camp 
Robinson, at the CBHCO there, then proceed to their home of record.  They get 
individualized medical treatment plans for each of them.
	CBHCOs provide a great service to our soldiers.  Returning home for the 
remainder of medical care allows reunification with family and friends, allows 
them to maintain their self-worth while on limited duty, reduces undue financial 
hardships on families caused by large separations geographically, and provides 
continuity of care that will be important after they are released from their 
active service. 
	To date, CBHCO Arkansas has in processed over 700 soldiers.  There have 
been 218 of those Arkansas Army National Guard and 19 U.S. Army Reserve soldiers 
from Arkansas.  The remainder being from the other states.  Without CBHCO, those 
soldiers would have been in a medical hold status at an active installation in 
another state away from their family.  It is a great program.
	The Montgomery GI Bill is a very complicated program with many variations, 
depending on the subprograms and the service member's particular situation.  One 
of the complicating factors is that each service component manages their program 
differently.  For instance, in the active Army, a soldier cannot use Federal 
Tuition Assistance and GI Bill together unless the cost of tuition exceeds the 
funds provided by one program.  In the Army National Guard, soldiers can use any 
of the GI Bill programs and Federal Tuition Assistance at the same time.  We see 
that as a benefit.  The Army National Guard views the GI Bill as a program to 
cover the additional expenses of college, maybe beyond tuition costs.
	In addition to the Montgomery GI Bill and Federal Tuition Assistance, 
Arkansas currently offers the Guard Tuition Incentive Program, it is a state-
funded program, funded biennially by the state legislature.  Currently we are 
funded at about $500,000 per academic year.  This program provides assistance 
benefits for soldiers and airmen attending Arkansas colleges and universities at 
a rate of $1000 a semester for a full time student or prorated if less than full 
time.  We have about 450 Guardsmen receiving assistance from this program each 
semester.
	In addition to these programs, the State of Arkansas recently formed the 
Arkansas National Guard Educational Partnership Program with, at this time, 33 
partner colleges within the state.  These colleges have agreed to waive 25 
percent of tuition and fees for the Air Guard, because they do not get Federal 
Tuition Assistance on the Air side; and for the Army Guard, they waive all 
tuition cost that exceeds the $4500 a year Federal Tuition Assistance limit.  As 
I said, we currently have 33 partnership members and this is a great benefit.
	Over the last two years, the only recurring issue in the education arena 
has been a number of complaints about the National Guard's policy concerning 
after-service benefits.  Unlike the active components, members of the Guard and 
Reserve must maintain membership in order to be eligible for many of these 
benefits.  Although we empathize with the Guardsmen who desire to separate from 
the Guard and retain eligibility for benefits, we understand that difference is 
primarily driven by wanting to provide an incentive for them to remain in the 
Guard and Reserve.  So we know why that is there. 
	Many of our service members are changed for life by their experiences 
during mobilization and deployment.  Transition Assistance Programs are critical 
to their successful reintegration into society and letting them know that we 
care about their welfare.  Most service members, as mentioned earlier, are not 
paying attention during many of the briefings during the demob process because 
they are only thinking of reuniting with their family and going home.  
Therefore, we believe these programs would be improved by allowing returning 
service members to remain on active duty at home station for a period of time, 
possibly prorated based on the time spent deployed.  This time would allow 
closer monitoring of their situation, better education as to what is available 
to them.  In fact, the 90-day post-deployment moratorium on drilling or having 
them on active duty or in a drill status we feel is actually counter-productive.  
What we have found is that a lot of soldiers, after five days, a couple of weeks 
maybe at home, started showing up at the armories voluntarily, drinking coffee 
together.  They were their own best support group.  And so we feel like this 
moratorium may have actually been the wrong approach.
	Some needs for support, like Post Traumatic Stress Disorder, may not 
manifest themselves until much later after the return.  For that reason, we need 
the authority and funding to bring service members back on duty if needed to 
officially resolve these late-developing issues.
	Thank you for your continued interest in the welfare of our soldiers and 
airmen.  They are true American patriots and they continue -- as you have heard 
already, we have got folks turning around and going back that have only been 
home about a year.  So they continue to answer the call for duty.
	Pending your questions, that concludes my testimony.
	MR. BOOZMAN.  Thank you, General.
	Mr. Watson.
	[The statement of Brigadier General Haltom appears on p. 98]

STATEMENT OF DONALD L. WATSON

	MR. WATSON.  Chairman Boozman, Congresswoman Herseth, Congressman Snyder, 
Senator Pryor, thank you for the opportunity to appear before the Committee and 
discuss collaboration of the U.S. Department of Labor Veterans' Employment and 
Training Service and our state and federal partners in providing transition 
assistance to the Arkansas National Guard.
	I have been asked to appear before you today to discuss transition 
assistance for the Arkansas National Guard members returning from the Global War 
on Terror.  As you are aware, our State Director, Mr. Byran Gallup, recently 
passed away.  That was on the first of March, an unexpected heart attack.  To 
complicate matters, our 20-year veteran, who was his assistant, retired in 
January.  So I have been asked to pinch hit today.  So here I am.  Byran Gallup 
was a true advocate for veterans in Arkansas and he will be missed by our agency 
and everyone that worked with him, but particularly by the veterans or Arkansas.
	The State of Arkansas has been deploying thousands of Guard members.  We 
have been taking a proactive approach through the Department of Labor, by both 
doing mobilization briefings and demobilization briefings.  That is one of the 
differences that I have noticed in the testimony.  The reason that we are 
proactive on that basis is because of the Uniformed Service Members Employment 
and Reemployment Rights Act, which as an agency we enforce.  It is important 
that the deploying Guard members know that they have certain rights and 
responsibilities under that law before they leave their employment, to ensure 
that they guarantee those reemployment rights.
	On the demobilization end, we have been taking the lead and providing 
employment and assistance briefings at the demobilization sites that we have 
been discussing this morning.  The briefings are always a team effort between 
state and federal partners.  It includes of course, the Department of Labor, the 
State Workforce Agency, the Department of Defense, Department of Veterans' 
Affairs, the Employer Committee for Support to Guard and Reserve, and others.
	In our particular region, we cover 11 states, all the way from Montana 
down to Texas.  We have two major demobilization centers.  One is at Fort Sill, 
Oklahoma, which I believe the first panel mentioned several times; and the 
second is in Fort Carson in Colorado Springs, Colorado.  Our two state directors 
are very active in the mobilization and demobilization briefing that occur at 
those sites.  We have handled approximately 8000 people over the last 24 months 
in those two states.
	We cover both USERRA and reemployment rights, we cover the Transition 
Assistance Program on a formal basis.  We talk about employment workshops and 
information on how to access employment and training programs through the local 
veterans' employment representatives and through the Disabled Veterans Outreach 
Program, which are state counterparts.
	In addition, as a follow up, our two assigned Arkansas staff visited about 
18 separate armories in Arkansas to do individual briefings and encourage those 
National Guard and Reservists to come in and access the state workforce system.  
I believe my counterpart down here will add to that later in the testimony. 
	It is estimated that about 30,000 troops, active duty, National Guard and 
Reserves, family members and friends have attended activities in Arkansas in the 
last year.  Those were statewide celebrations, job fairs, local armory briefings 
and other public activities.  So it has been very, very active in Arkansas.
	In addition, each state director that we have in our 11 states has been in 
contact with the Adjutant General's Office.  We are approaching the Transition 
Assistance Program on an on-demand basis from the Adjutant General's Office.  
When they need a briefing, we will be there to provide that for them, either 
with the state staff or the federal staff.  As a result of the contacts that we 
have made at these mobilization and demobilization briefings, we had a total of 
37 formal reemployment rights cases that were filed in between 2004 and 2005.  
It is very interesting to note that 46 of the 47 were Guard and Reservists, so 
it is the main generator at this point.
	We have noted the same challenges that you have been hearing all morning 
about the troop rotations are sporadic.  Each demobilization briefing may 
contain troops from several states, which makes state-specific briefings 
difficult.
	Federal and state benefits can be complex and the access to those benefits 
is based on the demographics of where they are returning to, their home of 
record.  For example, here in Lowell, you have the VA Hospital in easy driving 
distance.  But if we have people going back to Wyoming, it may be 150 miles to 
200 miles to the nearest VA facilities.
	Eligibility for some entitlements are time sensitive.  For example, under 
USERRA, with the lengthy deployments we have, they have a 90-day window to 
reapply for their employment.  So it is a very time-sensitive benefit that they 
have and the demob briefings emphasize that.
	In response to the challenges that we have been noticing, VETS has ensured 
that visits to the armories are conducted subsequent to the demobilization 
briefings.  In other words, we do it twice.  This allows the individual needed 
downtime and helps ensure a more receptive audience.
	During the briefings, emphasis is placed on the time sensitivity and 
notifying pre-service employer of the service member's intent to seek 
reemployment, and service members are provided written material on their 
employment and reemployment rights and responsibilities, as well as how to 
access both the USERRA and the e-law advisors.
	We heard some comments from the first panel about the complexity of the 
information being presented.  The Department of Labor has been a little bit 
proactive.  We have started a "Keys for Success" through the Employment and 
Training Administration.  This is a new program -- 
	MR. BOOZMAN.  Mr. Watson, would you pull your mic a little closer there?  
They are having a little trouble in the way, way back, if you would pull it 
right up there close.  Thank you, sir.
	MR. WATSON.  Is that better, sir?
	MR. BOOZMAN.  Yes, sir.
	MR. WATSON.  Okay.  As I was saying, the Department of Labor has been a 
little proactive to streamline the information process for the returning Guard 
and Reservists.  We have started a "Keys for Success" program and over 250,000 
of these brochures have been distributed.  What this actually does is it gives a 
central contact numbers for all employment and training issues for the returning 
service members.   We have already started the distribution on those, they are 
basically put out through the Department of Defense and through our formal TAP 
sites, and we are working on other strategies to get these in the hands of all 
service members at all the demobilization sites.
	Our agency is committed to doing the best we can for every service member 
that returns from the War on Terrorism.  
	We are currently preparing for similar activities in Texas where we will 
have 3500 to 4000 National Guard troops returning at the end of March 2006.
	So that is basically the testimony and I would be glad to take any 
questions.
	MR. BOOZMAN.  Thank you.
	Mr. Batey.
	[The statement of Mr. Watson appears on p.  107]



STATEMENT OF DOYLE BATEY

	MR. BATEY.  Mr. Chairman, it is a pleasure to appear before this Committee 
on behalf of the Director James Miller to update you on the efforts of the 
Arkansas Department of Veterans' Affairs to provide transition assistance to the 
veterans returning from Operation Enduring Freedom and Operation Iraqi Freedom.  
With service officers and support staff located in the federal VA regional 
office at Fort Roots in North Little Rock, hospital representatives located in 
Little Rock's John L. McClellan VA Medical Center, and at the Arkansas Veterans' 
Home here in Fayetteville, and most importantly, with county Veteran Service 
Officers serving in each of the 75 counties throughout Arkansas, the Arkansas 
Department of Veterans' Affairs offers expert assistance to our veterans.
	Our County Veteran Service Officer Program is a major key to our success.  
In each county, we offer professional advice and assistance free of charge.  Not 
only do we advise our National Guard members concerning their VA benefits, but 
we also provide information on special employment assistance through the 
Arkansas Department of Workforce Services, the veterans' preference in state 
hiring policy and homestead and personal property tax exemptions for those who 
meet the requirements.
	Our County Veteran Service Officers live and work in the community that 
they serve, allowing for a close, personal relationship between the veteran 
service officers and the folks they serve.  Our agency is somewhat integrated 
with National Guard, as evidenced by the fact that many of our County Veteran 
Service Officers are retired National Guard members from the local areas that 
they serve in.  Several of our Work Studies are National Guard members.  Upon 
return from deployments, National Guard units are visited by County Veteran 
Service Officers in order to raise the unit's awareness of the Service Officer's 
availability and to provide benefit claims assistance.  These close 
relationships allow National Guard Commanders to often refer troops by name to 
our Service Officers.
	There are several great programs provided by the Federal Veterans Benefits 
Administration.  The Post Deployment Health Reassessment Program, as you talked 
about earlier, which is part of the Department of Defense, mandated force health 
protection initiative is applauded by our department.  This program has been 
very favorably received.  These are outstanding programs that we use to educate 
our troops.  In addition, one of our department's major goals is to provide 
continuing support.  Many Guard members returning from deployment are anxious to 
reconnect with loved ones and thus, veterans' benefits are not an immediate 
concern.  By having a County Veterans Service Officer available in each county, 
we offer a unique service to the veteran, allowing us to provide one-on-one 
assistance, alleviating the need for the veterans to return to the Guard unit or 
to a Veterans' Affairs regional office in order to receive assistance.
	The mission of the Arkansas Department of Veterans' Affairs is to provide 
dedicated service to the veterans of our state, their families and their 
survivors.  Our employees are committed to excellence in assisting with the 
development of all benefits claims.  Veterans are encouraged to take advantage 
of the professional expertise available through our staff.  Our mission is to 
serve those who have served.  The Arkansas Department of Veterans' Affairs 
furnishes representation for veterans, widows and dependents.  
	It is our desire to provide all veterans transitioning to civilian life 
with the resources and services necessary to succeed in the 21st century 
workforce.  Our goal is for every Guard member to experience a seamless 
transition back to civilian life.
	Mr. Chairman, this concludes my testimony.  I thank you for this 
opportunity to testify. 
	MR. BOOZMAN.  Thank you.
	Ms. Patterson.
	[The statement of Mr. Batey appears on p.  112]

STATEMENT OF SARA PATTERSON

	MS. PATTERSON.  Chairman Boozman, Ranking Member Herseth, Congressman 
Snyder and Senator Pryor, I am honored to appear before you today on behalf of 
the Arkansas State Approving Agency for Veterans Training to provide comments on 
education benefits in Arkansas.
	The State Approving Agency's primary task is to approve education programs 
for the use of the GI Bill.  We use the Code of Federal Regulations when 
evaluating programs and applying criteria for program approval.  Many of these 
regulations remain virtually unchanged since written in the 1940s, and 
therefore, may not reflect the needs of today's recipients.  Education practices 
and theories have changed over the years, and perhaps now is the time for the 
rules governing GI Bill education benefits to change accordingly.
	Through outreach activities, our three-person office advises potential 
qualified facilities on how to obtain approval.  We also provide information and 
assistance to military members separating from the service.  Most veterans and 
Guard members erroneously believe that education benefits can only be used at 
colleges and universities.  Monthly participants at the Little Rock Air Force 
Base Transition Assistance Program commonly show surprise when they hear that 
they can use their benefits for schools such as cosmetology, barbering, real 
estate, truck driving and for on-the-job training.  The State Approving Agency, 
through outreach activities, continuously promotes the different methods of 
using the GI Bill, but progress is quite slow.  Veterans do not even know to ask 
the question when they visit a facility, "Is this program approved for veterans' 
training?" or "Can it be approved for veterans' training?"
	Expensive describes most short-term career-oriented programs such as truck 
driving.  At proprietary schools in Arkansas, truck driving training reflects a 
120-clock hour program condensed into a three-week period.  The clock hours per 
week that a student spends in class determines payment allowance under the GI 
Bill. In this instance, students attend 40 hours per week for three weeks.  The 
current monthly rate for full time school attendance for Chapter 30 Montgomery 
GI Bill beneficiaries is $1034 a month, and for a Chapter 1606 Montgomery GI 
Bill Selected Reserve educational assistance beneficiary, the rate is $297.  For 
National Guard beneficiaries, the education allowance is quite disheartening.
	Truck driving tuition costs range from $3000 to $5000, yet students under 
the GI Bill only receive approximately $775.50 for Chapter 30s and $220.50 for 
Chapter 1606 recipients.  This essentially equates to students receiving three-
quarters of a month of benefits for full time attendance.  As currently applied, 
this burdens the beneficiary to find alternative methods for funding the 
remaining financial need of his education.  On the other hand, the same 
beneficiary attending a conventional college program would receive full benefits 
of $1034 a month for the length of the semester.  One answer to this disparity 
may be to expand the list of accelerated payment programs to include occupations 
and professions other than high tech programs.  Using the current methodology 
for accelerated payment programs, the veteran would be looking at a 60 to 70 
percent return on the cost of the tuition.
	On-the-job training constitutes a rapidly growing method of using benefits 
in Arkansas.  In 2000, we had seven programs with seven beneficiaries in those 
programs.  Now we have 96 OJT facilities approved with currently 133 veterans in 
those programs.
	Chapter 1606 benefits are out-of-system payments, meaning that the 
payments originate from a different source than other more traditional education 
payments.  It takes months for Chapter 30 OJT beneficiaries to receive their 
first payment from the processor in Muskogee, Oklahoma.  The procedure for 1606 
OJT recipients takes much longer.  This delay alone makes undertaking the 
program seriously problematic for the transitioning beneficiary, whose funds 
normally are stretched due to transitioning and the lack of requisite skills and 
education to demand a better wage.
	When our office receives the OJT paperwork, we then send it to the 
Muskogee Regional Processing Office.  The Muskogee Regional Processing Office 
then establishes eligibility and inputs the information into the imaging system.  
That information is then transferred to the St. Louis Regional Processing Office 
where payment comes from for 1606s.  And as simple as it sounds, it is a long 
process.
	For example, our office sent OJT paperwork to the Muskogee Regional 
Processing Office on July 21, 2005 for a Chapter 1606 beneficiary in an airframe 
and powerplant program.  As of this writing, which was March 8, 2006, the 
veteran still had not been paid and his name finally showed up on a March 7 list 
of paperwork being processed, but again, he had not received any payment yet.  
Another beneficiary in an apprenticeship lineman program, his paperwork was sent 
August 18, 2005.  His name also finally showed up on that March 7 list from the 
St. Louis RPO, but again no payment had been distributed.
	OJT and apprenticeship training programs are increasing in all states.  
These programs not only benefit veterans, but they also benefit employers, 
communities and states.  Perhaps one day, this method of payment could be 
automated.  This may greatly improve the processing time, thus distributing 
monthly payment benefits to the veterans in a timely manner.  Since all 1606 
claims are out-of-system payments, processing occurs at the St. Louis RPO.  
Changing the payment process so that each of the four regional processing 
offices handles their own claimants' paperwork would greatly enhance the 
response time while reducing the workload on the St. Louis RPO.  The Muskogee 
Regional Processing Office does a commendable job with both OJT and school 
claims.
	Everyone here today has a vested interest in veterans and their training 
and their benefits.  We have to pool all of our knowledge together and refer 
groups to one another.  I find often that does not happen.  We must also look 
for creative solutions and refuse to accept the status quo, a status quo that 
worked in the 1940s for education benefits.  Flexibility and responsiveness will 
catapult this endeavor into the 21st century.
	In closing, Mr. Chairman and Ranking Member Herseth, I would like to thank 
you and those in attendance today for the opportunity to comment on veterans' 
educational benefits in Arkansas.  We greatly appreciate your efforts to make 
benefits more flexible and accessible for the proud defenders of our freedom and 
for those who will follow in their footsteps when duty calls.  I welcome the 
opportunity to address any questions you might have concerning the role of the 
State Approving Agency and the benefits afforded under the GI Bill.
	MR. BOOZMAN.  Thank you.
	Mr. Snead.
	[The statement of Ms. Patterson appears on p.  116]

	



STATEMENT OF RON SNEAD

	MR. SNEAD.  Thank you, Mr. Chairman, Congresswoman Herseth, Congressman 
Snyder and Senator Pryor.
	On behalf of the Arkansas Department of Workforce Services (DWS), formerly 
known as the Arkansas Employment Security Department, as you may have previously 
known it, and our director, Mr. Artee Williams, I wish to thank you for this 
opportunity to address this committee concerning our department's ability to 
help serve returning military members and their dependents with employment 
assistance and training opportunities. 
	First, let me begin by explaining that the data contained in this 
testimony, when relating to veterans is defined by the Department of Labor as 
those military members who have served for a minimum of 180 days or more on 
active federal duty and have not been released with a dishonorable 
characterization of service, or was released prior to 180 days due to having 
sustained a service-connected disability.  The Department of Workforce Services' 
information systems list all military members who seek assistance from our 
department as veterans, as previously defined, in the aggregate.  Our 
information systems do not distinguish between service components or whether the 
military member was considered National Guard or Reserve.
	Currently, there is a wide array of services provided by our agency to all 
of our clients, veterans and non-veterans alike  Chief among these are temporary 
wage replacement through unemployment insurance benefits (if deemed eligible), 
employment referral services, and Workforce Investment Act services.  The 
Workforce Investment Act services are targeted to provide assessment and 
training that will lead to placement into suitable employment.  Specifically, 
for recently separating military members returning from active duty, these 
services also include information regarding state veteran benefits that are 
available to them, educational and vocational resources that are available, 
assistance with filing claims for service-connected disabilities and assistance 
with obtaining copies of necessary military records.  The specialized staffs 
within our department, whose primary mission is to serve all veterans with 
employment services and training assessment needs, are our Local Veterans 
Employment Representatives, which we call LVERs, and our Disabled Veterans 
Outreach Program Specialists, or DVOPs.  These positions are funded through a 
grant, as previously mentioned, from the Veterans Employment and Training 
Service of the U.S. Department of Labor.
	As mandated by the Jobs for Veterans Act, our DVOPs serve all veterans 
primarily by providing core, intensive and referral to supportive services to 
meet the employment needs of disabled veterans and other eligible veterans, with 
emphasis directed toward serving those who are economically or educationally 
disadvantaged, including veterans with barriers to employment.  Our LVERs, on 
the other hand, primarily conduct outreach to employers, engage in advocacy 
efforts with human resource hiring executives to increase employment 
opportunities for veterans, encourage the hiring of disabled veterans, and 
generally assist veterans to gain and retain employment.  Additionally, it is 
our LVER and DVOP staffs that facilitate and assist with the monthly Transition 
Assistance Program at the Little Rock Air Force Base.  This is currently the 
only DOL-sponsored TAP workshop within the state.
	It is critical that all returning National Guard and Reserve component 
members attend the TAP briefing once they return from active duty.  
Particularly, if the members are not job attached, or if they do not have a job 
waiting for them.  This is our agency's primary visibility to obtain a complete 
list of returning military members who may need employment assistance and/or 
training.  
	I think most of you have a couple of charts in front of you.  The first 
chart there shows the entered employment rates for Arkansas as reported to DOL 
on December 31 of 2005.  And for the period of April 1 through March 31 of 2005, 
we had a 69.5 percent entered employment rate.  And what that means, of the 
146,000, or over 146,000, people that came into our offices seeking assistance 
with job placement, 101,584 left with being referred to a job and eventual 
placement to a job, whether that job or another job.  When you compare that to 
the veterans, the second chart, we are at 66 percent of those who come into our 
office.  I want to make something clear here on those two charts that you have 
before you.  We only have visibility of those that go through the TAP program or 
those veterans who walk into one of our 32 offices within our state.  So, it is 
not all veterans that we see.  As previously stated, we need to do more 
coordination and we are working toward that end among the different agencies 
that do have that visibility.
	To help reduce the number of unemployed, it is imperative to maintain the 
employer funded public employment services system.  This is particularly true 
for the rural areas of Arkansas where employers and job seekers rely on the 
Department of Workforce Services and the local One Stop Centers to obtain 
information on training and job placement.
	The ability to provide job placement and training has a direct correlation 
to adequate staffing.  During the last five years, we have seen a reduction of 
our veteran staff fall to 28 full-time equivalent positions from a staff of 33.  
In Arkansas, we have 75 counties and maintain offices in 32 communities.  We 
currently do not have the ability to maintain a veteran staff member in each of 
our local offices.
	However, all of our local offices do include our Wagner-Peyser funded 
employment service staff, which serves all personnel, to include veterans.  Our 
Wagner-Peyser staff has also been adversely impacted by budget reductions.  Over 
the past 10 years, we have experienced a reduction of 18 full time equivalent 
budgeted staff or a reduction of just over 18 percent of available staff to 
serve the public and the over 66,000 employers in Arkansas.  Currently, we have 
just over 80 full time positions to serve in our 32 local offices across our 
state.
	That said, our agency's pledge to Congress and to the employers and 
citizens of Arkansas is to bring all available resources to bear, to include 
personnel and technology, in order to continue providing appropriate employment 
services and training opportunities to assist job seekers find productive high 
demand jobs.  In that regard, like most states, we have had to rely on improved 
data systems to assist in helping serve our clients.  We now have an automated 
system that allows all clients the ability to file for initial unemployment 
claims via the Internet.  In addition, we have recently fielded an automated job 
service system that allows employers to place jobs online and job seekers to 
self-register and post resumes online.  These systems will act as a force 
multiplier for our reduced staff to continue to provide professional services to 
veterans and non-veterans.  However, continued reductions in Wagner-Peyser 
funding will have a negative effect on our agency's ability to maintain a 
presence in our current 32 community locations.
	Lastly, in Arkansas, the Department of Workforce Services has a strong 
relationship with several partner agencies to include, but not limited to, the 
Department of Economic Development, Department of Workforce Education, 
Department of Veterans Affairs and a very strong and positive relationship with 
each of our 10 local Workforce Investment Areas, their boards and One-Stop 
operators.  As a result, returning veterans who need advice and assistance 
concerning information in regard to high demand occupations and available 
training assistance need only to visit one of our centers across the state.  
Together with the service member's Montgomery GI Bill and other resources that 
are available for the service members and their spouses, the local DWS offices 
and the local One-Stop Centers are the right places to begin a new career for 
returning veterans in Arkansas.
	Ladies and gentlemen, that concludes my prepared remarks and I am subject 
to your questions.
	MR. BOOZMAN.  Thank you, Mr. Snead.
	Mr. Fillman.
	[The statement of Mr. Snead appears on p.  120]

	




STATEMENT OF WILLIAM FILLMAN

	MR. FILLMAN.  Chairman Boozman, Ranking Member Herseth, Congressman Snyder 
and Senator Pryor, I appreciate the opportunity to appear before you today to 
discuss both the role of the Veterans Benefits Administration in administering 
education benefits through the Regional Processing Offices in Muskogee and St. 
Louis, and the efforts the Little Rock VA Regional Office has taken to provide 
transitional assistance for members of the National Guard and Reserves in the 
State of Arkansas.  I have a brief summary of my testimony and I respectfully 
request that my complete written statement be included in the record.
	Today, I am accompanied by Mr. Sam Jarvis, Director of the Muskogee 
Regional Office; Mr. William Nicholas, Director of the Little Rock Regional 
Office; and Ms. Francie Wright, the Education Officer at the Muskogee Regional 
Processing Office.
	My testimony will address two topics:  the workload and performance trends 
experienced by the Muskogee and St. Louis Regional Processing Offices and the 
outreach efforts of the Little Rock Regional Office to ease the transition of 
the Arkansas National Guard and Reserve members back into civilian life.
	Nationwide, the education claims processing workload has increased over 
the past several years, both in terms of the number of claims received and in 
the number of students using their benefits.  In 2005, VA received over 1.5 
million benefit claims, an increase of 5.6 percent over the prior year.  The 
number of students rose to nearly 500,000 in 2005 from 395,000 in the year 2000.  
From fiscal year 2004 to fiscal year 2005, the St. Louis RPO received 10.9 
percent more incoming workload and the Muskogee RPO noted a 7.1 percent 
increase.  We expect that these elevated workload levels will be sustained 
throughout 2006 and 2007.
	Despite the challenges, the RPOs are providing responsive, accurate 
service to veterans and their dependents.  Through the end of the month of 
February, the RPOs were processing original claims in 37 days, supplemental 
claims in 22 days and their accuracy rate was 96 percent.  Even with the 
increasing demands for services and the rise in workload, the Veterans Benefits 
Administration anticipates it will end fiscal year 2006 closely approaching our 
processing targets of 25 days for original claims and 13 days for supplemental 
claims.
	VBA is actively involved in educating service members about VA benefits, 
providing claims processing assistance and supporting a smooth transition from 
military duty back to civilian life.
	The Little Rock VA Regional Office has consistently shown its support and 
commitment to provide a seamless transition for returning military members.  In 
fiscal year 2005, the office conducted 18 Transition Assistance Program and 
Disability Transition Assistance Program briefings at the Little Rock Air Force 
Base for 669 participants.  Today, in fiscal year 2006, the office has conducted 
10 briefings for 318 participants.
	Employees from the VA Regional Office have also participated in the 
Welcome Home celebrations for returning troops from Operation Iraqi Freedom and 
Operation Enduring Freedom.  The Little Rock Regional Office is working 
diligently to ensure Arkansas National Guard members' transitions are as 
seamless as possible and are doing whatever they can to prevent members and 
their families from being isolated from access to VA medical care and benefits.
	A total of 34 National Guard installations have been visited in Arkansas 
and the office has made contact with 910 individuals.  A total of 377 disability 
claims were taken during these interviews.  Dedicated VA employees took time to 
listen to the concerns and the views of our military men and women and have 
stayed at each location until every Guard member who wanted to see them had the 
opportunity to do so.  The service provided reflects the dedication of the 
office employees to our mission.
	Mr. Chairman, we at the VA are proud of our continuing role in serving 
this nation's veterans, whether that service is in the form of educational claim 
support or providing transitional assistance to service members eager to return 
to the communities.  We continually evaluate and seek opportunities to improve 
the quality and scope of our outreach efforts to members of the National Guard 
and Reserves.  I hope that my testimony today will provide you and the Committee 
with a better understanding of the levels of service currently provided by the 
Muskogee and St. Louis Regional Processing Offices as well as the transitional 
assistance extended by the Little Rock Regional Office to the veterans of 
Arkansas.
	This concludes my opening statement.  Thank you for the opportunity to 
appear before you today, and I would be pleased to address any questions you may 
have at this time.
	[The statement of Mr. Fillman appears on p. 126]

	MR. BOOZMAN.  Thank you, Mr. Fillman.
	General Haltom, the 2004 study of Reserve personnel showed that overall, 
only 14 percent of those re-enlisting consider education benefits as a decision 
to re-enlist.  You mentioned earlier the thinking about the education benefit 
post-discharge.
	Do you personally believe that providing post-discharge education benefits 
will reduce re-enlistment rates?
	BRIGADIER GENERAL HALTOM.  This is a guess.  I doubt if it would have a 
significant effect on it.
	MR. BOOZMAN.  Thank you.  The other thing is several witnesses testified 
today about the complex nature of VA and employment benefits and things.  Ms. 
Patterson, in particular I think you pointed out that a lot of people that came 
just did not understand what was going on as far as the education benefits and 
things. 
	I guess my question is how do we get that worked out? Do we need to get 
your to -- in fact, I think something that would be very helpful, Ms. Patterson, 
and for all of you and I know you hear these questions over and over again 
pertaining to different things that maybe there is just a particular thing that 
people have trouble with.  If you would give us a list of those questions that 
are being asked over and over again, perhaps we could get you all together where 
you could work back and forth to provide that information. 
	But do you have any other suggestion as to how we can kind of get some of 
those glitches out that seem to be recurring things?
	BRIGADIER GENERAL HALTOM.  I cannot think of anything right off, sir.
	MR. BOOZMAN.  Okay, thank you.
	The other thing is, you mentioned the Tricare providers.  Do you feel like 
that is improving or getting worse?  Certainly, you can have a great insurance 
program and I know Dr. Snyder has worked hard on this, I have worked hard on it.  
You can have this great insurance program, but if there is nobody there to 
provide it, then it is not much good.
	BRIGADIER GENERAL HALTOM.  I believe it is improving to some extent.  Of 
course, prior to this latest surge in those who were eligible for Tricare, there 
was not a real requirement for a lot of these physicians to accept it because 
there was not anybody in their geographic area that would use it.  Through 
education programs, reaching out to the various clinics and hospitals, it is 
improving.  I do not believe it is where it needs to be.
	MR. BOOZMAN.  Good.  I know we have actually had the folks down here and 
toured them around and things and that was very helpful.  But something that 
might be helpful to us would be,  where the areas of problems are and then we 
hear through contacts with our office, but again, if you could provide 
information as to your gut feeling, you know, of where there are problems, then 
I think the delegation could work together to help sort that out for you.
	BRIGADIER GENERAL HALTOM.  All right. 
	MR. BOOZMAN.  Mr. Watson, you cite the number of briefings and attendance.  
What are the results of the work being done via the TAP in terms of putting 
veterans back to work?
	MR. WATSON.  The only figures we would have on that would be the ones that 
Mr. Snead just mentioned to you.  The entered employment rate I believe he said 
was in excess of 60 percent for the veterans that go through the workforce 
system.  On the briefings and the numbers we cite, we really have no way to 
track those individuals as they leave, particularly at the main demobilization 
sites, because they go to various states which also leads to tracking issues.
	MR. BOOZMAN.  Okay, very good.
	Ms. Patterson, I am surprised by the examples of the slow processing that 
you mentioned.
	MS. PATTERSON.  So am I.
	MR. BOOZMAN.  I am surprised, but I am not that surprised.
	[Laughter.]

	MR. BOOZMAN.  Do you have any idea why the RPO has such trouble in 
processing that type of claim?
	MS. PATTERSON.  I actually have no idea what takes it so long.  I am sure 
it is a tedious process, but I really have no idea.
	MR. BOOZMAN.  Okay.  Ms. Herseth.
	I am sorry.  Mr. Fillman?
	MR. FILLMAN.  Chairman Boozman, I have Francie Wright from the Education 
Processing Office in Muskogee, she could probably address that.
	MR. BOOZMAN.  Oh, yes, come on up.  You can sit there and grab that mic.
	MS. WRIGHT.  Thank you very much.
	In terms of the OJT benefits that are paid out of the RPO, the length of 
time it takes is impacted by the fact that it is not made out of our automatic 
benefit processing system that we use for every other type of education benefit 
that we administer.  In particular, the 1606 OJT has to be passed off from all 
three other RPOs to St. Louis for payment because of an accounting situation.  
It is something that we try to overcome, but any time there is any hand offs, it 
just adds days to the process.
	I was really surprised at the example that Ms. Patterson gave on the one 
from July.  Other than the fact that possibly the application itself, not the 
training package from the State Accrediting Agency, but maybe the veteran's 
package -- excuse me, Reservist or National Guardsman's application package was 
not complete.  Sometimes those things happen and of course, you know, in those 
instances, it would take even longer.  
	But I know that we are all concerned about the time it takes to work the 
Reservist and Guard OJT payments, but the reason it does take longer is because 
there is another handoff involved.
	MR. BOOZMAN.  Okay, thank you. 
	Ms. Herseth.
	MS. HERSETH.  Well, let me just come back to Ms. Patterson.  The two 
examples you gave us were both on-the-job training applications?
	MS. PATTERSON.  Correct.
	MS. HERSETH.  Okay.  And I think if there is a way for this Committee to 
look into how we streamline this process a little bit more, especially given 
what you describe in terms of the expansion of the number of on-the-job 
facilities that have been approved and how many more service members you have 
involved and if we look at that in some of the other states, perhaps there is 
justification here just based on raw numbers to give that a special look.
	Let me come back to General Haltom, in response to the Chairman's first 
question.  I am curious to know -- and I know it was just a guess on your part -
- but we certainly do not want to do anything to jeopardize recruitment and 
retention efforts within the Guard and Reserve, but do you say that you doubt 
that by allowing sort of a post-discharge utilization of education benefits that 
accrued would have a significant impact on retention -- do you say that because 
there are other factors that you think are maybe higher on the list in terms of 
retention, like pay, military retirement, some other issues, and maybe what 
those other factors would be?
	BRIGADIER GENERAL HALTOM.  Yes, I do believe there are other factors that 
are higher on the list.  And the fairness of the issue enters in too a little 
bit, in that if the active component soldier takes their benefits with them when 
they separate, then it would seem fair to me that the Guard member or Reservist 
took their benefits with them also when they separate.  And it is strictly a 
guess of mine on whether or not there would be a significant impact on 
retention.  I do not believe there would.
	Quite frankly, the biggest thing for retention, in my mind -- and this is 
strictly anecdotal -- is the desire to serve and to remain with their fellow 
soldier.  That is the biggest.
	MS. HERSETH.  I appreciate the point that you make, sort of the equity 
issue.  And perhaps one of the ways that we can discuss as we look to modernize 
and improve the Montgomery GI Bill is -- but at the same time address any of the 
Guard's retention concerns, even though I think that there are others that I 
have visited with informally that would cite the same factors you just did in 
terms of the most important factors to stay -- is that we perhaps look at, you 
know, a higher rate of benefits if you stay and a lower -- but still especially 
for the new 1607, based on an activation and deployment, that those benefits 
have accrued and a desire to use those benefits after the 90 days of service, 
one year of service, two years of active duty service. 
	The dental issue here, I live in Brookings, South Dakota and a couple of 
the colonels I talked to there, when they were getting ready for their 
mobilizations and activations, told me the same thing in terms of the amount of 
dental work that was required for the service members before they reached that 
readiness level.  Do you have any thought -- I think we are getting at a broader 
issue in terms of healthcare for all Americans, but any ideas there in terms of 
what we could do in the future to avoid that issue?
	BRIGADIER GENERAL HALTOM.  I think I know how we could avoid it, I am not 
sure how we would pay for it.
	MS. HERSETH.  Okay, fair enough.
	BRIGADIER GENERAL HALTOM.  I think that if all military service members, 
whether they were active, Reserve, Guard, had access to continued Tricare and 
dental coverage, it would greatly enhance our medical readiness of our soldiers.  
But there is a bill attached to that. 
	MS. HERSETH.  And anecdotally in conversations you have had with other 
adjutants general and deputy adjutants general, has this been an issue, just a 
national issue, just in terms of the dental?
	BRIGADIER GENERAL HALTOM.  Yes, ma'am, it has.
	MS. HERSETH.  Okay.  Mr. Fillman, you had talked about your outreach 
efforts.  Could you maybe discuss in a little bit more detail how some of those 
efforts have focused on working with the National Guard and Reserve on the new 
Chapter 1607 benefits, and how many employees, both in St. Louis and Muskogee, 
are specifically trained to process the claims for 1607?
	MR. FILLMAN.  Sure.  The guidance for processing 1607 came just -- we got 
that at the end of February, the combined guidance for the REAP program.  St. 
Louis and Muskogee and the other RPOs at that time conducted training on the 
guidance that came out.  In Muskogee, they have 10 people working specifically 
the backlog of 1607 cases to get those worked out; and in St. Louis, they have 
18 people working those.  In St. Louis, since the end of -- they conducted the 
training I believe it was the last week of February, the first week of March.  
They have completed 1908 1607 cases.  Muskogee has completed almost 900 at that 
time.  So we are working rapidly to get that backlog of claims that had been 
pending out.  So the guidance is there, it is in place and we are rapidly 
working to get those out and caught up.
	MS. HERSETH.  I appreciate that.  And then your specific outreach efforts 
are going to maybe be facilitated by this guidance that has been more recently 
issued?
	MR. FILLMAN.  Yes.
	MS. HERSETH.  Okay.  Just one last question.  Mr. Snead, you mentioned in 
terms of the partners that you have been working with, the different agencies.  
Can you just elaborate briefly on your working relationship with the VA's 
Vocational Rehabilitation and Employment Office?
	MR. SNEAD.  What we have is our LVERs and our DVOPs and the County Vet 
Representatives.  In each of our DWS locations, as I mentioned to you earlier, 
we have -- currently 32 offices across the state.  Of course, we are fortunate 
in Arkansas, and we are thankful to have the County Vet Reps in each of the 75 
counties to help coordinate our activities.  The LVERs, and DVOPs work with them 
to coordinate activities with the Department of Workforce Education and, I might 
add, in coordination with our states two-year and four-year colleges that are in 
those different communities, oftentimes the military member, when they come to 
us, they do not know all their eligible benefits, as any other non-veteran that 
comes to us, of what is available out of our Workforce One-Stop offices.
	Sometimes, we can combine the military GI Bill with other funding sources 
such as supportive sources, if they need transportation, or whatever it may be 
that they need -- child care is another one -- to help them go to school.
	So, it takes all these people working together, knowing each other's 
programs and benefits to service veterans and non-veterans alike.
	I hope I answered your question.
	MS. HERSETH.  Yes, thank you.
	Thank you, Mr. Chairman.
	MR. BOOZMAN.  Thank you.  Mr. Snyder.
	MR. SNYDER.  Thank you, Mr. Chairman. 
	General Haltom, several questions.  What is the problem with Tricare Prime 
Remote?  You had in your written statement and you referred to it briefly, but 
what is the problem with Tricare Prime Remote?
	BRIGADIER GENERAL HALTOM.  I have got to remember the context in which I 
used that, sir.
	MR. SNYDER.  It is on page 4 of your written testimony.
	BRIGADIER GENERAL HALTOM.  If I understand it correctly, under TAMP, the 
180 days of Tricare coverage that the soldier is entitled to after mobilization 
ends is Tricare Standard, and it is not, therefore, available in the Prime 
Remote during that 180-day period.
	MR. SNYDER.  So it impacts some members but not all.
	BRIGADIER GENERAL HALTOM.  Yes.
	MR. SNYDER.  Okay.  Congresswoman Herseth brought up the dental issue and, 
you know, we saw that all over the country, that one out of five of all our 
Reserve Component forces that were mobilized were not medically fit for service.  
Not just for dental, but for all reasons.  When you think about that, these are 
people who have been coming to drill every month maybe for years, we think they 
are ready and then they all got screened and one out of five in the richest 
country in the world were not medically fit for deployment for military service.  
I think that really has to be a wake up call.  I think the problem is what we 
are asking to do is for the military to solve a problem that the civilian side 
and the private side has not solved, which is how do we pay for healthcare.  And 
we can go all throughout Arkansas and find all kinds of people in the Guard or 
out of the Guard that have dental problems and medical problems and lack of 
health insurance to pay for them. So it is a national problem, but I am hopeful 
that -- you know food stamps came about because people who were drafted were 
coming in too skinny and under-nourished, and maybe this has been a wake up 
call, what has happened in the last few years, that we have got to solve this 
issue of lack of health insurance and dental health insurance for our own 
selfish national security reasons, because it hurt us and continues to hurt us 
in these mobilizations.
	The issue of the providers is a frustrating one.  I know Dr. Schwartz and 
I, who is another physician member of the Armed Services Committee, sent a 
letter nationally that was published by the AMA and just basically pleaded with 
people, we know there are problems with Tricare, but sign up anyway if you can.  
But it is an issue and I wish it was one that we did not have right now.
	I would like your comment on the 50 percent referral rate.  Were you 
surprised when -- those figures have gotten some attention nationally.  What was 
your personal view as somebody who had several thousand troops overseas?
	BRIGADIER GENERAL HALTOM.  I was surprised that it was that high.  We 
expected what I would have considered high, 25 percent.
	MR. SNYDER.  Right.
	BRIGADIER GENERAL HALTOM.  It was much higher than what we thought it 
would be.  I think it is a reflection in our case -- and I can only look at our 
case -- I think it is a reflection of where our people were and what they were 
doing and the impact that it had on them.
	MR. SNYDER.  General Haltom, one of the issues that has come up in these 
discussions the last months, and Congresswoman Herseth mentioned it too, is the 
different impacts of the GI Bill in the Reserve Component and the Active 
Component.  To me, one of the most strikingly unfair aspects of it for the 
Reserve Component soldiers is if one of your Guardsman has a six-year enlistment 
and is activated his or her last two years, but then decides not to re-enlist, 
they get no educational benefit at all.  Now we cannot feel good about that.
	BRIGADIER GENERAL HALTOM.  No.
	MR. SNYDER.  I mean that is just terribly unfair.  Another issue that has 
come up is, as you may know, if somebody is in the Active Component and enlists, 
in order to participate in the Montgomery GI Bill, they have to pay $1200 their 
first year, which is a significant chunk of pay, you know, if you are an E-1 
just coming in.  I have a bill, as do some others, and there is some interest in 
just eliminating that $1200 and just say if you join the Active Component, you 
are entitled to the benefit if you complete your service and all, whatever the 
criteria are.   We had a hearing last week in Washington that you are probably 
familiar with, on the GI Bill and at the end of it, the Chairman, Chairman 
Boyer, was asking the panel of Reserve Component officers and representatives, 
looked at it the other way.  Well, if you are concerned about the Reserve 
Component benefit and think there should be a better benefit because it has 
dropped off, we have increased the Active Component benefit, the monthly pay, 
but not the Reserve Component, should you not be advocating for, in his words, 
putting some skin in the game, having some kind of a monthly payment from the 
Reserve Component forces, which I think is an absolutely terrible idea.  I think 
we need to get rid of the $1200 from the Active Component and not think about 
somehow requiring some kind of a monthly payment from Reserve Component members 
to join.  What is your feeling about that way of dealing with that issue?
	BRIGADIER GENERAL HALTOM.  Well, I agree totally with your analysis of it.  
Requiring a monthly fee from the Reservist would have the effect of further 
reducing participation in the program.
	MR. SNYDER.  Right.
	Mr. Watson, you brought up something in both your written and oral 
statement that I had not thought of before, which is when we talk about, like 
the suggestion earlier that this demobilization ought to be done in Kuwait and 
all the discussions of benefits as much as could occur there.  But then you 
pointed out that one of the problems is that people are from multiple states and 
every state has really tried to step forward and we have different tax 
treatment, different educational benefits, states have stepped forward trying to 
provide benefits.  It can make a debriefing kind of weird when you basically are 
going to tell people now when you get back home, be sure and talk to your own 
state representative because your law may be different.  I had not thought of 
that before.
	Do you have any further comments on that? 
	MR. WATSON.  Well, it is a common problem, sir.  A lot of your states have 
state veterans' benefits available.  For example, my home state of Texas has 
low-interest loans for housing and land purchases.  If they are disabled 
veterans, they have free license plates, free hunting and fishing licenses, and 
as soon as you go over the border into Oklahoma, it changes.  And it is very 
difficult to do those briefings.  What we encourage at our briefings is to make 
the contact through the local One-Stop or the Employment Service that Mr Snead 
represents, with the LVERs and DVOPs.  What you tend to find is the local 
representative knows the easy access points, they have the good referrals for 
both state and federal benefits in the local area, and the demographics plays a 
large role in it too.  If you are out in west Texas, you have to go through the 
County Service Organizations such as Mr. Batey here next to me represents. Those 
local representatives are the experts, they know the easy way for the service 
member to access benefits.
	MR. SNYDER.  Ms. Patterson, I appreciate your participation today and your 
comments.  I was struck by one of your conclusions that we need to refuse to 
accept the status quo.  We had an interesting hearing last week in Washington 
where -- I don't know, John, I guess there was a panel of about eight or nine 
people at that hearing, but the first two were the Assistant Secretary of 
Defense, Mr. Hall, for Reserve Affairs and the other one was Mr. Carr, the 
Deputy Undersecretary of Defense for Military Personnel Policy.  And in both 
their written and oral statements, they stated that "There are no significant 
shortcomings in the GI Bill."  I was suspicious that there was some coordination 
in statements there.  I sensed a good OMB scrubbing of their statement before it 
came before us.
	[Laughter.]

	MR. SNYDER.  Because then right down the line of the general officers who 
are in charge of these programs, they brought out the kinds of things that have 
come out, how the Reserve benefit has dropped off because the Armed Services 
Committee has not done anything to deal with it while the Veterans' Committee 
has raised the benefit for the Active Component.  And so, I mean it was very 
clear to me that there are significant shortcomings of the program and I 
appreciate your comment that you think we should refuse to accept the status 
quo, which I think is the mood of the members of this Committee that are here 
today.
	And you specifically mentioned the benefit for the Reserve Component, the 
$297 a month I believe, as, in your words "disheartening".
	I have a sister who her hobby now is going to garage sales in a town where 
a college is and buying used textbooks and put them on the internet.  And $297 -
- I could easily find places where $297 would buy you two textbooks, with the 
cost of textbooks.
	MS. PATTERSON.  Right.
	MR. SNYDER.  That is disheartening if you think you are getting some big 
benefit for having served in the National Guard or the Reserve forces.
	I think those are all my questions at this time, Mr. Chairman.  I 
appreciate all your participation here today.
	MR. BOOZMAN.  Do you have anything else, Ms. Herseth?
	MS. HERSETH.  No.
	MR. BOOZMAN.  Okay, thank you, panel, very much.  We appreciate all you do 
for the Armed Services.
	Let us have our next panel.
	Dr. Snyder has one additional question real quick.
	MR. SNYDER.  Mr. Fillman.  I am sorry, Mr. Fillman, may I ask you one more 
question?
	MR. FILLMAN.  Sure.
	MR. SNYDER.  Because in the next panel is Mr. Steve Kime and one of the 
things that he says is that "Perhaps the single most important material element 
needed to bring the administration of the GI Bill into the 21st century is high 
tech expertise and equipment."  And he states that the education program does 
not enjoy high priority in the Department of Veterans' Affairs.  What is your 
comment?  I do not know if you had a chance to look at that statement, that 
there is a great need for high tech expertise and equipment.
	MR. FILLMAN.  I think the shortcoming is probably the interaction between 
the VA and the Department of Defense on getting the information that we need in 
a timely manner to be able to process a lot of these claims.
	For example, in the Guard and Reserve program or in some of the programs, 
we are dependent upon the military to tell us the eligibility of the people.  
And sometimes that is very difficult to get.  We have to go to each of the 
branches.  Some branches are receptive and give us the information.  Other 
branches are not.  So if there was more interaction, access where we could get 
the information on our own, I think we would tremendously improve the timeliness 
of the benefit.
	MR. SNYDER.  Thank you, Mr. Chairman. 
	MR. BOOZMAN.  Let us take a two minute break.
	[Recess.]

	MR. BOOZMAN.  The meeting will be in order.
	Our final panel is Mr. Jim Bombard, Chairman, Department of Veterans' 
Affairs, Veterans' Advisory Committee on Education; Colonel Robert F. Norton, 
Co-Chair of Veterans Committee, The Military Coalition; Mr. Don Sweeney, 
Legislative Director, National Association of State Approving Agencies; Dr. 
Steve Kime, Immediate Past-President, Servicemembers Opportunity College and 
former Vice President of the American Association of State Colleges and 
Universities; Representative Joyce Elliott, Arkansas House of Representatives, 
District 33, Director of Advanced Placement Field Initiatives, The College 
Board; Mr. David Guzman, Legislative Director, National Association of Veterans 
Program Administrators and Mr. Keith Wilson, Director, Education Service, 
Veterans Benefit Administration.
	Let us start with Mr. Bombard.

STATEMENTS OF JIM BOMBARD, CHAIRMAN, DEPARTMENT OF VETERANS' AFFAIRS, 
VETERANS' ADVISORY COMMITTEE ON EDUCATION; COLONEL ROBERT F. NORTON, CO-
CHAIR, VETERANS COMMITTEE, THE MILITARY COALITION; DON SWEENEY, LEGISLATIVE 
DIRECTOR, NATIONAL ASSOCIATION OF STATE APPROVING AGENCIES; DR. STEVE KIME, 
IMMEDIATE PAST-PRESIDENT, SERVICE-MEMBERS OPPORTUNITY COLLEGE, VICE PRESIDENT 
(RETIRED), AMERICAN ASSOCIATION OF STATE COLLEGES AND UNIVERSITIES

STATEMENT OF JIM BOMBARD

	MR. BOMBARD.  Chairman Boozman, Ranking Member Herseth, Congressman 
Snyder, Senator Pryor, I am pleased to appear before you today on behalf of the 
Veterans Advisory Committee on Education to provide comments on two interrelated 
issues.  First, the Committee's findings and recommendations on improving the 
flexibility and administrative efficiency of Title 38 and Title 10 education 
programs.  Second, the Advisory Committee's findings and recommendations on 
restructuring the GI Bill.
	The Committee, upon review of the claims processing system believes an 
overhaul of the management philosophy that underlies the collection and 
manipulation of data should be accomplished.  This overhaul may require 
legislative action, which the Committee recommends the department initiate.
	It is clear that funding for information technology for the Veterans 
Education Service within the VBA is inadequate and that much needs to be done to 
make hardware and software improvements that will streamline VBA's ability to 
absorb and manage the data it requires.  Updating the IT systems associated with 
the payment of educational assistance benefits should be a top priority.
	With regard to program flexibility, the Committee has in the past made a 
number of recommendations designed to increase program flexibility.  Among them, 
accelerated payment without restriction, expansion of test reimbursement, 
removing or extending the delimiting date, equalizing the benefit for OJT and 
apprentice in relationship to the IHL and NCD education and training programs, 
and remove restrictions on wage progression for municipal employees who are 
receiving OJT benefits under the GI Bill.
	The Committee believes that the Education Service in conjunction with 
Congress can create a flexible program and an efficient claims processing system 
by accomplishing the following:
	Restructure the GI Bill, adopt a Total Force policy.
	Adopt a new philosophical approach to claims processing which streamlines 
the process.
	Create a synergistic relationship with Congress in order to ensure 
feasibility and support for any additional programs associated with the GI Bill.
	Improve information exchange between DoD and DVA.
	Invest in state-of-the-art IT systems.  Adopt the TEES system, which is 
the education expert system which has been proposed for the VA for the last five 
or six years. 
	Hire additional staff to do claims processing or at a minimum maintain 
budget direct FTE support.  That's one of the biggest problems.  The VA 
Education Service has some fine people.  A lot of the resources are being 
drained away from them and they have an inability to implement efficient and 
effective claims processing systems.
	With regard to the Total Force, the Advisory Committee recommended a 
fundamental change to the structure of the Montgomery GI Bill and put forth a 
framework for a new GI Bill that reflects the realities of the Total Force 
policy.
	Both the Active Duty and Selected Reserve programs share the same name and 
are part of the same legislation, but they have different purposes.  The Active 
Duty program revolves around recruitment, transition and readjustment to 
civilian status, while the SelRes program is designed to promote recruitment and 
retention, with no regard for readjustment or transition.
	The current GI Bill programs did not consider DoD's use of the SelRes for 
all operational missions.  Under this policy, the SelRes and some members of the 
Individual Ready Reserve are considered integral members of the Total Force.  
Reserve members who are faced with extended activations require similar 
transition and readjustment benefits as those separating from the Active Duty.
	For this reason, the Advisory Committee recommended replacing the separate 
GI Bill programs for veterans and reservists with one program that consolidates 
the GI Bill programs under one umbrella, Title 38.  This will add value to the 
Montgomery GI Bill as a recruitment and retention tool for the Armed Forces, 
including the National Guard and Reserve, establish equity of benefits for 
returning Guard and Reserve members; support Congress' intent for the Montgomery 
GI Bill and potentially save taxpayers money through improved administration.
	This concept would provide Montgomery GI Bill reimbursement rate levels 
based on an individual's service in the Armed Forces, including the National 
Guard and Reserve, a Montgomery GI Bill active duty three-year rate, a pro rata 
SelRes rate or Sel Reserve rate and a SelRes activated rate, which is equivalent 
to the active duty of one month of benefits for one month of service on active 
duty.
	The Total Force proposal provides a unique opportunity to create a 
comprehensive GI Bill that is both fair and simple.  Its eloquence is its equity 
and its simplicity.
	I have been testifying to restructure the GI Bill for longer than I would 
like to remember, the first time when Tiger Roland Teague was the Chairman of 
the Veterans Affairs Committee and the question that is always raised is can we 
afford it.  Well, I do not think we can afford not to.
	In closing, I would like to thank you for the opportunity to present the 
Advisory Committee's recommendations and views in this regard.  Thank you.
	MR. BOOZMAN.  Thank you very much.
	Colonel Norton.
	[The statement of Mr. Bombard appears on p. 131]

STATEMENT OF COLONEL ROBERT F. NORTON

	COLONEL NORTON.  Thank you, Mr. Chairman, Ranking Member Herseth, 
Congressman Snyder.  On behalf of the 36 members of The Military Coalition, I am 
very pleased to offer our testimony on the Total Force Montgomery GI Bill, and 
my written statement also addresses the TAP program.
	I did have a prepared statement here today, but I thought it might be 
appropriate to follow up on some of the themes that have already been addressed 
here by earlier panels.
	First, Congressman Snyder, I really appreciate your engagement on this 
issue because I see you and other members who serve both on Veterans' Affairs 
Committee and on Armed Services as really key on this issue of restructuring the 
Montgomery GI Bill.
	The reality is -- and I think it is really important for the members of 
the National Guard here in this armory today, as well as the general public and 
lawmakers, to understand that the Montgomery GI Bill is a house divided.  As 
Congressman Snyder pointed out, the Reserve GI Bill program is operated under 
the jurisdiction of the Armed Forces Committee and the Active Duty GI Bill, 
ironically, is under the Veterans' Affairs Committee.  Now that may sound like 
an academic kind of Washington, inside-the-beltway issue.  But the reality is 
that the Defense Department has not endorsed any significant changes in the 
Reserve Montgomery GI Bill since before 9/11.  I will offer two examples.
	Number one, the benefits for initial entry into the National Guard or 
Reserve.  Back before 9/11, those benefits paid roughly 50 cents to the dollar 
for the Active Duty GI Bill.  Today, if that ratio were still in play, an Active 
Duty soldier who enlisted in the Army, for example, would earn as a veteran 
$1034 a month for his GI Bill benefits.  The Reservist would have under that 50 
percent ratio, about a $500 per month benefit.  But since 9/11, that benefit has 
dropped in proportion to the Active Duty program from $500 to about $297.  The 
members of the National Guard here who have served their country honorably and 
selflessly gone into harm's way deserve better treatment.  It is not fair and it 
is shameful that this nation cannot do better by them in terms of the Montgomery 
GI Bill.
	The second issue relates to what, Congresswoman Herseth, you brought up.  
I think there is a real strong linkage here on the Transition Assistance Program 
to the Montgomery GI Bill.  You brought up the Chapter 1607 program, the brand 
new program that Congress enacted two years ago for members of the National 
Guard and Reserve who are called up.  They receive a mobilization GI Bill 
benefit for their service on active duty.  And it really surprised me and 
disappointed me and I know it disappoints members of The Military Coalition to 
learn that, that none of the four members of this panel, members of the National 
Guard, who had served their country, did not even understand or know about this 
benefit.
	And let me illustrate that.  If a young man or young woman graduated from 
Rogers High School, joined the National Guard in 2002 and then, as I understand 
it from talking to some of the Guardsmen here this morning, were called up and 
they have deployed this year, March 2006.  So under the example, this person has 
already served about four years.  They come back, after perhaps a 15-month tour 
next June, June 2007.  Because of that 15 months of active duty, under Chapter 
1607, they have earned a $22,300 GI Bill benefit for their service to the 
nation.  They can use it for college, they can use it for job training, they can 
use it for high tech courses.  Obviously these four young men really did not 
even know about that benefit, but more troubling, let us say that in the example 
I used, the person who joined out of Rogers High School in 2002 comes back next 
June, that is five years, and then they complete their service and they decide 
they want to go to the University of Arkansas in Fayetteville full time when 
they complete their service in June 2008.  They have basically one year from 
their return from deployment to use $22,300 under the GI Bill.  They cannot use 
all of that benefit.  Barely would they be able to use even a portion of it when 
they separate.
	Now the Coalition is certainly not recommending that anybody get out of 
the National Guard, but as you pointed out, Mr. Chairman, the issue here is not 
a question of their motivation.  I think General Haltom pointed out that these 
great young men and women stay in the Guard, stay in the Reserve, stay on active 
duty for a variety of reasons.  And to make the GI Bill benefit a matter of 
compelling them to stay in the Guard is not what they are all about.  They will 
stay because they want to serve.  They will not stay just because of the GI 
Bill.  And whether they complete their service in two years or 10 years, they 
should be able, as was pointed out earlier, to take their benefits earned from 
active duty with them into civilian life and have the same 10-year usage period.  
So the Coalition would recommend a complete restructuring of the GI Bill, and it 
will be critical for the Armed Services Committee and the Veterans Affairs 
Committee to get together to make this happen.  We agree that the programs under 
the Reserve side should be transferred over to Title 38.  We have much more 
confidence that the Veterans' Affairs Committee can structure the GI Bill in 
proportion to the service rendered and also to provide a very needed 
readjustment benefit.
	Finally, on the GI Bill, I would just point out that there has been a lot 
of interest in improving the flexibility of the delivery of the benefits, say 
for long haul trucking courses and other than high tech.  In other words, 
accelerated use of the benefit.  And that is a wonderful thing and certainly we 
in the Coalition fully support that.  Of course, again, the problem is, using 
the example that I gave earlier, that if you complete your service and you get 
out of the National Guard or the Reserve, you leave all of those benefits from 
mobilization on the table, and the flexibility frankly is not there.  So the 
reality is that the Montgomery GI Bill is a house divided.  We need to create a 
single architecture for it and we need to make sure that these fine young men 
and women who serve in the Arkansas National Guard -- presently there are 919 on 
active duty here in the state, 118,000 reservists nationwide on active duty, and 
since 9/11 more than 525,000 have served on active duty in the War on Terror, 
including in that number about 70,000 who have pulled two tours of duty.  They 
deserve a better deal under the Montgomery GI Bill and we look forward in the 
Coalition to working with the Committee and working with the Armed Services 
Committee to make this happen as soon as possible.
	My statement also comments on the TAP program and I would be happy to 
address that during oral Q&A.  
	Thank you, Mr. Chairman, for this opportunity to present our views.
	MR. BOOZMAN.  Thank you, Colonel Norton.
	Mr. Sweeney.
	[The statement of Colonel Norton appears on p.  146]

STATEMENT OF DON SWEENEY

	MR. SWEENEY.  Chairman Boozman, Ranking Member Herseth, Congressman 
Snyder, I am very pleased to appear before you today on behalf of the National 
Association of State Approving Agencies to comment on ways to make VA education 
benefits more flexible, ease the administration of the benefits for colleges, 
universities and students, and also present our views on the Total Force 
Montgomery GI Bill proposal.
	As a founding member of the Partnership for Veterans Education, the 
Association is proud to support the Total Force GI Bill proposal.  As we state 
in our written testimony, it is an idea whose time is overdue.  The security and 
the future of our nation are hinged upon the efforts and successes of the one 
percent of our population who put their lives on the line for the freedoms that 
we all so thoroughly enjoy.  They deserve no less from the rest of us than to be 
provided with the best possible programs and services to ensure that they can 
continue to strive to be the leaders and the builders of tomorrow.
	As my colleagues have and will continue to say here today, a Total Force 
GI Bill is a relatively simple idea, but far reaching.  It simplifies the 
administration, which should bring efficiency and cost savings to the federal 
government and it creates equality for those who serve on active duty from the 
Selected Reserve forces -- equal opportunities and benefits for equal service 
rendered.
	We offer several recommendations on way to make VA's educational 
assistance programs more flexible.  First, however, we would like to commend the 
Congress on its achievements.  Much has been done in recent years to provide 
service members, veterans and other eligible persons with greater opportunities 
to use education and training benefits which they have earned.  Yet, the very 
nature of today's learning environments and the ever-evolving global economy 
demand that we continue our improvement efforts to ensure that the programs 
remain viable.  In our view, the GI Bills should be the premier educational 
assistance programs in the country, bar none -- let me repeat -- bar none.
	In the written testimony, we offer eight recommendations ranging from 
relatively small revisions in law to ones which will have significant impact on 
the ability of veterans to use their GI Bill benefits. I will quickly highlight 
three of them in my remarks, summarize the other five and close with suggestions 
on how to ease the administration of the benefits.
	Our first recommendation recognizes the need for lifelong learning and 
offers wording for the incorporation of the principle into Title 38 by way of 
revisions to Section 3452(b) and (c).  You will see in the written testimony 
(c).  As of last night, it occurred to me that (b) needs to be there as well.  
It expands the provision to all professions, vocations, and occupations, 
recognizes that a single unit course or subject may be all that a veteran needs 
in order to obtain, maintain or advance in an occupation or profession.  And, it 
provides for the use of benefits while enrolled in a subject or combination of 
subjects without requiring a connection to a license or a certificate.
	Our second recommendation is in line with the first -- create a task force 
of representatives from Congressional Committee staff, the VA and NASAA to 
establish a new set of approval criteria, possibly a subsection (e) under 
Section 3676 of Title 38, for the purpose of approving the kind of course 
pursuit described in the first recommendation.  Criteria that would ensure the 
quality and integrity of the learning experience and simultaneously not impose 
unnecessary requirements on the school or entity.
	Our third recommendation is to revise Section 3014A of Title 38 to allow 
accelerated payment of basic educational assistance for education leading to 
employment in industries other than high technology, but place limitations on 
the length of such programs for use of the provision.  The recommendation is 
already partially addressed in H.R. 717.
	At this point, I would like to summarize by topic the other five 
recommendations mentioned in the written testimony. 
	We recommend removing unnecessary approval criteria such as the period of 
operation rule and the requirement for a pro rata refund policy in specific 
situations.
	We recommend modernizing approval criteria for correspondence courses in 
terms of the minimum length of the program and the length of the affirmation 
period and then suggest increasing the percentage of the educational assistance 
allowance payable.
	We recommend providing use of benefits for remedial or deficiency courses 
offered through online education.
	And finally, we recommend maintaining the current rate of benefits for job 
training programs that expire on September 30 of 2007.
	We conclude our comments today with recommendations regarding ways to 
expedite the VA systems for processing the payment of VA educational assistance 
benefits.  They are at a macro level, but important to note.  We really 
encourage the Committee to assist the Department, as already has been stated 
here today by the two other speakers, in its efforts to provide sufficient 
funding for the improvement of technological assistance associated with the 
payment of VA educational assistance benefits, especially apprenticeship and OJT 
programs.  It is our understanding that there is strong competition for funds 
within the VA for technology improvements, so any help that the Committee can 
give to support the needs of education services would be greatly appreciate.
	We also encourage the Committee to support other initiatives by the VA to 
streamline its processing systems, such as the capacity to accept electronic 
signatures on veterans' application forms and other forms used by the Regional 
Processing Offices.
	In closing, Mr. Chairman, I would like to thank you again for the 
opportunity to comment on the Montgomery GI Bill Total Force proposal, ways to 
make VA's education benefits more flexible and ways to ease the administration 
of the benefits.  We very much appreciate your leadership and the efforts of the 
Committee to make improvements in these programs.  I would be very happy to 
respond to any questions that you might have. 
	MR. BOOZMAN.  Thank you, Mr. Sweeney.
	Dr. Kime.
	[The statement of Mr. Sweeney appears on p. 157]

STATEMENT OF DR. STEVE KIME

	DR. KIME.  Mr. Chairman, Ranking Member Herseth and Congressman Snyder, it 
is a real honor to be here in America and I cannot think of a more appropriate 
place to hold a hearing like this, particularly when you think about the Total 
Force GI Bill concept -- it is the perfect place.
	I come to you today as a 31-year veteran and as an educator both and I 
bring with me proxies from all of the major national higher ed associations -- 
the American Council on Education, the land grants, state college and 
universities -- representing just about every student in the United States, 
including the independent colleges and universities.  I could list them all, but 
I do not want to waste my time here doing that.
	The important thing for you to understand in that sense right there is 
that all of them have coordinated very carefully on the Total Force GI Bill 
concept and support it, as members of the Partnership for Veterans Education.  
These are the people who invented and supported the concept of a benchmark for 
the GI Bill,  I am sure you have heard about, to make it equal to a four-year 
public college education.  I am here to remind you that you are only 60 percent 
of that benchmark, or so, today.  Not that this Committee and not that the 
Congress has not tried and deserves credit for darned good work, because I think 
you have made a lot of improvement.  But if you think about this, you are at 60 
percent of that benchmark today and the Reserve and Guard is only getting 28 
percent of that 60 percent. So not only has the proportion gone down, but the 
absolute commitment about how much of a four-year public college education are 
you going to fund has also taken a big hit in the last three or four years.  And 
that really truly needs review.  And all of higher ed is on board with my 
comments on this.  Like I say, I very carefully coordinated it.
	There has been progress, as I said, in your attempts to do something about 
the Active Duty service member and their attempt to get an education, even 
though the harder you try, the farther behind you get.  You have not done nearly 
as well, Congress has not done as well as they should, with the Reserve and the 
Guard.  The fact of the matter is that the GI Bill has not kept pace with modern 
U.S. national strategy and U.S. national deployment policies.  We have a new 
strategy, we have a new deployment policy.  Ever since I was a kid, we have 
talked about total force.  Well, now we have really got a total force strategy.  
Now we have really got a total force deployment policy.  We do not have a total 
force GI Bill.  We have a GI Bill that is spread out too far in too many places 
and has enormous inequities in it.
	In fact, what you have done lately with 1606 and 1607 is simply a well-
intentioned -- a very well-intentioned -- bandaid on a sucking chest wound.  It 
does not cut it.  There needs to be a total force GI Bill that truly embraces 
the national strategy and the deployment policy that we have.  And it is time to 
get all of this together in one place.  It must be done under Chapter 38.  I 
know it is going to be hard and I know that a lot of Reservists and Guard people 
who want to keep control of this money are not going to like it.  But it all 
needs to be in one place.  I was, by the way, very impressed with the General's 
answer today.  He had that right on about retention.  Do not let them tell you 
that, it is nonsense, it will not affect retention.  You do the right thing and 
it will pay off.
	Now to shift gears here a little bit.  Modern adult and continuing 
education, since I am supposed to represent higher ed here, remember that that 
applies to everybody.  Modern adult and continuing education includes truck 
driver schools, it includes technology courses and it includes all of the 
academic courses.  And it applies to the total force.  These people that go out 
there from the Reserve and the Guard need adult and continuing education 
assistance as much as active duty people do.
	Now philosophically -- and this is what has been missed -- there is no 
readjustment benefit, as Colonel Norton said, for the Guard and Reserve.  Well, 
if you apply modern adult and continuing education concepts to the Guard and the 
Reserve, you have to change your thinking about this.  It applies to them.  They 
need continuing education and continuing updates and they need access to the 
benefit they have earned by being shot at.  They need those benefits until they 
can get themselves back and readjusted into the economy.  That is important.  So 
the whole purpose of the GI Bill for the Guard and Reserve needs to be 
rethought. It is wrong right now.
	Now I would like to turn my attention a little bit to administration.  I 
have comments to make about administration of the GI Bill that are not pretty 
and I wanted to be sure that you understand that these do not apply to the 
people that I have met.  As Chairman of the Committee for a long time, I have 
been to these regional offices and I have talked to hundreds of people in the 
Veterans' Administration.  I have found very few that I would not say were first 
class and many of them veterans themselves, working very hard.  The problem is 
you have great people working in a system that is totally outdated and outmoded, 
and operating on philosophies that were gained really in 1945 to 1950 with a 
different GI Bill and a different purpose.  It is simply not working.
	Now, administratively, let us start at the top.  All GI Bill funding 
belongs in one place.  We now have two departments.  After the war we only had 
one department.  Now we have a department that is responsible for war fighting, 
we have a department that is responsible for veterans.  Let us put the GI Bill 
in the department where it belongs, I do not know why it has taken us 50 years 
to discover this.  It is where it belongs, under Title 38.  It does not belong 
over there under the Reserve bosses in the Pentagon, who are more worried about 
keeping head room in their budgets than they are in providing the education 
benefits that they should be providing for their people.  It belongs over in the 
department that was created for that purpose.  And that is the Department of 
Veterans Affairs.  Now their skirts are not clean, because they still act like 
an administration and not like a department, but it is time that they be given 
the responsibilities of a department and that they start to act like it.
	Administrative culture in the VA is a disaster.  It generated itself in 
the late 1940s and early 1950s when the idea was that every GI Bill recipient is 
a potential lawbreaker.  Management by exception was impossible.  All the 
schools were out there to steal all the money they could steal.  We are in a 
different world here now.  Even, for crying out loud, the IRS and the Social 
Security Administration understand management by exception.  Why can we not 
manage the GI Bill by exception and why can we not treat this benefit they have 
as a credit earned and simplify the administration.  It is terrible.  The 
lawyers and the administrators that run the GI Bill, not to mention to OMB, have 
it by the neck.  And nothing can get done.  We need to start all over again with 
rulemaking and we need a clean slate.  And the reason I am making that point so 
vociferously is that you have that opportunity now.
	If you create a total force GI Bill, if you go back and start all over 
again and get this thing in one place where it belongs, you can address the 
management philosophy under which it runs and you can clean out a lot of 
cobwebs.  It needs to be done desperately.
	The consequences of the way the GI Bill is administered now lead to low 
morale, total misunderstanding and confusion, as you could tell this morning, 
about what is it and how big is it and how do I get to it.  All of that has got 
to be fixed.
	Also, I think we need to look a little more specifically at modern 
techniques of accounting and administration.  I mean Wal-Mart understands them, 
Visa understands them, The Home Depot understands that you can use an electronic 
signature.  All of these people know how to manage a debit system and a credit 
system.  Why in heavens name has the Department of Veterans' Affairs stuck with 
this old system of accounting that requires reams of information, repeatedly 
requires reams of information and then does not get it and manipulate it in 
time, because they have too much of it for too little.
	And I would like to give you one perspective here.  How much can a veteran 
take?  An active duty veteran can only steal $36,000.  We have got to be paying 
a lot more than that to administer this poor kid's GI Bill, because we do it 
over and over and over again.  Management by exception, modern accounting 
techniques would make a big difference. 
	And the other administrative reality I would like to address, since you 
asked me to when you asked me to testify, is this business of the priority of 
the veterans' benefits, or the education benefits in VA.  Now these people 
cannot talk about that and it is unfair to ask them about it.  But you can ask 
me, I have been watching it for decades.  They enjoy no priority practically.  
Virtually everything you guys looked at this morning, you ended up reducing to 
medical issues.  Well, Lord knows that medical issues come first.  No veteran 
would say otherwise, a youngster who is hurt is more important than one who 
wants to go to college.  Let us get that out there.  Nobody is arguing 
otherwise.
	But in your administrative hierarchy and in the way you put funds out 
there, you have got to put education benefits high enough in the priority that 
they can get the job done.  They will never, never fix their technical approach 
to this or their modeling approach to it, if they are always low priority in 
everything.  It will never happen.
	So that needs to be addressed forthrightly.  I am not saying that it 
should be taken from medical benefits and all that, because I do think that is 
the most important thing in the world for these people. But education benefits, 
if it has no priority, then it might as well not exist.  And I think somebody 
has got to bite that one off and I think it has to be someone out of the VA to 
say it forthrightly and that is me.
	Summary -- the current management of the GI Bill needs comprehensive 
ongoing reform, thorough ongoing reform.  The proposed GI Bill, and putting all 
of this in one place under a total force GI Bill, Title 38, is a rare management 
opportunity as well as a rare opportunity to finally produce an equitable, fair, 
clear GI Bill that everybody in America understands, that is related to the 
amount of combat experience that a person has.  If they are called to active 
duty, they get a fair proportion of education benefit.  Here is your rare 
management opportunity to do something really important.
	That is my comments.  I have more detail supporting all this in my written 
testimony.
	MR. BOOZMAN.  Thank you very much, Dr. Kime.
	Representative Elliott.
	[The statement of Dr. Kime appears on p. 163]

STATEMENT OF STATE REPRESENTATIVE JOYCE ELLIOTT

	MS. ELLIOTT.  Thank you, Chairman Boozman and thank you Ms. Herseth, and 
my own Congressman, Congressman Snyder.  
	I will say up front my comments will be about education in particular, I 
am not being dismissive of on-the-job training, let us make sure that is clear.  
But I am speaking to you today as an educator, retired educator actually, I 
taught for 31 years.  And now work for the College Board and also serve in the 
House of Representatives as the Chair of the House Education Committee.  So you 
might not be surprised that my comments might center strictly on education.
	My job with the College Board though has been one of a great experiment, 
because we are -- if you are not familiar with the College Board, our primary 
concern is making sure we connect students to college successfully and my job is 
to make sure I reach out to those under-represented populations because one of 
the things that we recognize at the College Board is that a lot of students have 
taken advantage of a college education in this country, but there are those 
populations out there that we call under-represented, who are not connected and 
connected successfully.  And we had never thought about this when we started the 
job, in terms of veterans, but as we are a membership organization that includes 
colleges, both two-year and four-year colleges, one of those under-represented 
populations among the college population happens to be veterans.
	So it is my responsible and it is the mantra of the College Board to make 
sure that we do something about connecting everybody to a college education who 
wants to have that advantage.  We found in our research of course that in 
academic year 2004-2005, 16 percent of the $18 billion that went to grant in aid 
went to veterans. And of course, we have heard today much of that is probably -- 
that is not enough money, we need to do even better. 
	But it does very little good for us to even appropriate the money and to 
fund the programs if we are not doing what we are trying to do at the College 
Board, to ensure two things -- that is equity and access.  I had no idea before 
I came here today that equity would be so much a part of this conversation, but 
just in the general educational world at large, we know that equity and access 
are huge issues, especially for those populations for whom they might be the 
first generation to attend college.  If they do not have that support, if we do 
not have people doing something other than just saying "y'all come," and not 
have the support mechanism there, and not making sure there is a continuous 
stream at the beginning of the process through the end of it, we tend to lose 
people.
	For example, I have heard a great deal today about the delay.  Delay leads 
to deterrence and the students who maybe start the process and are delayed 
within that process tend to never complete the process of a college education.
	So I want to assure you that in this effort to make sure veterans have 
what they need, that they have an opportunity to gain a college education 
through the benefits that you are providing, that we think about this in terms 
of not doing things the same old way.  I thought before I came here today 
probably that education was one of the most inflexible agencies out there.  I 
think I have been disabused of that notion today.  There is somebody who is 
worse off than we are in the education field.
	In my testimony that I provided to you, there is some discussion about the 
importance of a college education, what it means to this country in general.  We 
know that if a person is educated, it is going to cost a great deal of money and 
we talk about veterans going to college.  On average, just to go to a two-year 
college, it costs about $2200 a year just for tuition and fees. And when you 
take a look at the rest of those costs, if a veterans is at the college campus, 
that is almost $12,000.  That price of course goes up as we get into talking 
about going to a four-year school.
	And so this notion that we are not fully funding veterans so that they can 
complete that process is one I think that really flies in the face of what we 
owe them.  It is terribly expensive, and I am just talking -- I am not even 
talking about the private colleges, that is just the state colleges and that is 
just an average.
	And the other complications that are facing veterans of course have to do 
with access and equity.  Most of them have the obligation of work and most of 
them have to attend college on a part time basis.  That creates extra burdens 
for them because if they are working, they have family obligations and they 
still need more money.  How are they supposed to afford it if we do not do a 
better job of making sure they have access to those funds.  So they end up 
borrowing money, one-third of the students who go to college end up borrowing 
money.  On average, the average student borrows $7500 a year just to get through 
college.  And if you are a veteran, chances are -- and you have not come from a 
family who has been to college, and that is true of many of the students that I 
taught who have become veterans and I taught 11th and 12th graders and I often 
saw those students matriculate from high school right into the military.  And 
many of those students I know personally did not come from families who had gone 
to college before.  So they did not have the means and sometimes not even the 
mindset that this is something that is attainable for me.  And I think if they 
can serve in the military, one of the things we ought to do is help them with 
that mindset and the means to make sure they can matriculate through college and 
give them the support.
	I will just kind of conclude my comments with some thoughts about the 
importance of helping veterans to attain a college education and what it means 
to society.  We all know that an educated person, for example, tends to be a 
less sick person.  We all know that an educated person is one who pays more 
taxes, although that is not our sole reason for having employment.  We also know 
that a person who is educated will indeed become a more productive and more 
participating member of our society.  These things are without reputation.  And 
every year the College Board produces something called College Trends where we 
show the benefit of a college education.  So this trend called Education Pays 
shows in one capacity after another, if you are college educated, what it means 
to this country and what it means to the advancement of this country.
	So I would just like us to think about it in terms of I guess to 
paraphrase a philosophy in helping our veterans attain what they deserve, you 
know, from those from whom we expect a great deal, we should expect to give a 
great deal back.  And I cannot think of a better way to do that than to make 
sure that we look at these issues of access and equity and to help the veterans 
realize the American dream as well.
	Thank you very much, Mr. Chair.
	MR. BOOZMAN.  Thank you, Ms. Elliott.
	Mr. Guzman.
	[The statement of Ms. Elliott appears on p. 174]

STATEMENT OF DAVID GUZMAN

	MR. GUZMAN.  Good afternoon, Chairman Boozman, Ranking Member Herseth and 
Mr. Snyder.  And we are almost finished.
	I have behind me the Chairman of the Legislative Committee for NAVPA, 
Faith DesLauriers, in the red and she will be here to help answer any questions 
later on.
	We have been asked to comment on Title 38 and Title 10 education programs 
and related administrative processes.  While both of these titles, as relates to 
the Montgomery GI Bill are admirable programs, especially at the onset, because 
they have allowed service members the opportunity for readjustment or employment 
needs, education and training, these excellent programs as envisioned by 
Representative Sonny Montgomery have not had the benefit of being updated to 
meet today's technological advancements or the involvement of the total force 
military.  Many of the statutory and administrative requirements are applied in 
such a manner as to be restrictive and, in some cases, deny education and 
training benefits to eligible veterans, especially those that meet advance pay 
issues.
	The NAVPA agenda for 2006 outlines many of the barriers.  We know that 
efficiencies can be gained in a win-win-win situation for the VA, the school and 
the veterans, and we have made such recommendations in our agenda, which was 
distributed to the Subcommittee on February 1.
	While the VA has been open to many of our suggestions, the continual 
turnover of the Director of Education Services has impaired some of this 
progress.  Past directors have indicated that our recommendations are sound.  
One even said that they were no-brainers, easy to do. But they leave before any 
actions are taken, progress is stopped and in fact, we find ourselves starting 
over after a new director is named and after he or she becomes familiar with the 
technologies employed and is comfortable in the new position.
	Some of the recommendations include staffing VA Education Services for TAP 
briefings.  Making processing rules the same for all benefits.  Considering that 
a claims examiner handles many different types of claims, the more variations in 
rules between benefits complicates processing and slows down service to 
veterans.  If the claimant is eligible for a higher rate, the VA should pay the 
higher benefit automatically.  Public Law 108-375 requires that the VA obtain an 
election if the claimant is eligible for more than one program.  Eliminate the 
need to develop for mitigating circumstances for reductions and terminations 
under all education benefits.  And make the change effective the date it occurs.  
On electronic applications, accept electronic signatures. And develop a web 
portal for veterans to view their records specifically on notification of 
receipt of their application by VA, determination of eligibility and other 
tracking issues.  These now tend to bog down the process and tie up phone lines.
	NAVPA has long held that the GI Bill is an earned benefit, as well as an 
investment. But that it should not have a 10-year delimiting date, but that 
delimiting date should be extended or even eliminated, to better address the 
needs of lifelong learning.  Many veterans cannot use the benefits immediately 
following service to our country because of family commitments. When they 
finally are able to attend school, the benefit has expired because of the 10-
year delimiting rule, a real disservice to those who have served honorably and 
contributed, and truly need the assistance.  Most veterans accessing the 
Montgomery GI Bill today use the 36 months of eligibility within their first 
college degree program; however, there are many others who need the benefit to 
pay high-cost, short-term programs or for on-the-job training and 
apprenticeships, or to upgrade skills in their profession.
	There are 12 education programs now, too many for the VA and schools to 
manage at acceptable levels.  The eligibility requirements are confusing to the 
VA, let alone for the school certifying official.  Remember that those school 
program administrators are at the business end of the GI Bill.  If the schools 
cannot immediately hep a veteran because of confusing criteria, you can imagine 
the frustration of the veteran seeking help.  This is where the total force GI 
Bill concept comes in -- a fresh and new approach to an education program that 
equitably rewards our veterans for their service to our country, one clean bill 
to replace and update VA education.
	A new total force approach could only enhance the support and services 
provided to our members and veterans from all branches of service.  Post-service 
benefits should be developed to ensure that they are commensurate with the type 
and length of service as well as the risk exposure from mobilization and 
deployments.
	This updated bill should consider the elimination of allowing the federal 
financial aid formula from eroding the value of the VA education.  It should 
embrace the concept of lifelong learning by allowing veterans to use their GI 
Bill when needed to earn a degree, a certificate or to upgrade job skills.  
Veterans should be allowed to work in academic departments on the campus in 
which they are pursuing their degree program to gain valuable work experience 
for life after college under the veterans' work-study program.
	Administratively, claims processing needs to be made more efficient 
through consolidation of the four regional processing centers. Claims are 
submitted to the VA in electronic format.  Staff savings in consolidation could 
be put to more urgent needs within DVA.  One stop processing of claims means one 
consistent answer to veterans and school certifying officials.  An on line, 
secure web portal, similar to your bank, school, airline, et cetera, would make 
for an efficient method of sharing information with the school certifying 
officials as well as with the client, the veteran.  This is not new technology.  
And can you imagine the reduction in telephone calls?
	Administrative details such as reporting data in the school certification 
to the VA are subject to annual audit and should not be necessary as too many 
claims are held in abeyance pending receipt of information that does not affect 
the eligibility status of the veteran's claim for education benefits.  Tie 
military separation physicals to VA compensation physicals to ensure that 
separating veterans are not delayed in receiving benefits.  A VA compensation 
physical can take six months to two years to determine compensable disability, 
depending on the location of the veteran and the workload of the medical 
facility in their area.
	We ask Congress to authorize a Veterans Service, Education and Training 
Program grant to be used by school veteran program administrators to enhance 
services to veterans, to outreach to non-student veterans in the local community 
and for training of school certifying officials.  Finally, DVA compensation for 
schools to develop enrollment verification for the VA is totally inadequate and 
has not been updated or increased since the mid-1970.
	Thank you for this opportunity and I stand ready to answer any questions.
	MR. BOOZMAN.  Thank you.
	Mr. Wilson.
	[The statement of Mr. Guzman appears on p. 178]

STATEMENT OF KEITH WILSON

	MR. WILSON.  Thank you.  Good afternoon, Mr. Chairman, Ranking Member 
Herseth and Congressman Snyder.  I appreciate the opportunity to appear before 
you today to discuss VA's education benefit programs as well as the 
Administration's views on the total force GI Bill concept.  My testimony will 
highlight workload, payment, and usage trends for the educational assistance 
programs under the MGIB, as well as the 1607 REAP program.  I will also discuss 
administrative processes and automation tools that support these programs.
	The education claims processing workload for Chapters 30 and 1606 combined 
has increased over the past five years.  From fiscal year 200 until 2005, the 
number of claims completed increased by 28 percent.  The number of students 
using the benefit rose by 16 percent and the total payments for the year 
increased by 87 percent to $2.1 billion.
	The overall usage rate for Chapter 30 grew from 57.9 percent in fiscal 
year 2001 to 65.5 percent in fiscal 2005.  We expect these trends to continue 
during fiscal 2006 as well as 2007.
	We are pleased to inform the Subcommittee that VA began making payments 
under Chapter 1607 in December of 2005. By the end of this fiscal year, we 
expect to pay about 40,000 individuals.  About 13,000 of those will be brand new 
benefit claimants.  As of March 6, 2006, we have processed 1483 of these claims 
and I am pleased to report as of this week, that number has increased to about 
3400.
	While staffing has increased in the past fiscal year across the four 
Education Regional Processing Offices, we have not yet fully realized the full 
productivity impact with these additional resources.  Formal training for new 
employees takes about 20 weeks.  Although a new employee is considered 
productive at the completion of that training, the employee does not produce at 
the same level as a journeyman claims examiner.  Normally we expect it to take 
about two years for a new employee to be fully trained and fully productive.
	We continue our efforts to migrate all claims processing work from the 
legacy claims processing system into the new corporate environment.  The 
Education Expert System, TEES, which we have discussed a lot already, is a 
multi-year initiative that, when fully developed and deployed, will result in 
the implementation of a claims processing system designed to receive application 
and enrollment information electronically and to process that information 
electronically.  This system will dramatically improve the timeliness and 
quality of education claims processing.
	Mr. Chairman, the Veterans' Advisory Committee on Education recently made 
a recommendation to consolidate the MGIB and REAP programs into one total force 
GI Bill program. VA found this recommendation merited serious further 
consideration.  Accordingly, the VA Deputy Secretary established a work group to 
further analyze the feasibility of such a consolidation.  The work group, which 
consists of both VA and DoD people, has met each month at least once a month 
since October of 2005.
	The total force GI Bill work group is analyzing many complex issues 
associated with the transition to a consolidated program.  Establishing a 
consolidated total force GI Bill program obviously would require significant 
changes to the current system, as well as new legislation. The benefits of a 
consolidated GI Bill program would need to be weighed against the potential 
impact on individual beneficiaries, entitlement levels, military recruitment and 
retention and funding.
	The transition to a total force GI Bill would require reconciliation of 
all of the current eligibility and entitlement requirements.  For example, 
active duty members eligible to receive benefits under Chapter 30 are required, 
upon electing the benefit, to make a $1200 contribution to the program through 
pay deductions.  Reservists eligible to receive benefits under Chapters 1606 and 
1607 are not required to make such a contribution.  The work group will need to 
analyze and prepare a recommendation as to whether the $1200 contribution should 
be eliminated, required for some, modified up or down, or required for all under 
the total force concept.
	Once the work group has completed its task and its recommendations have 
been fully considered, we will be pleased to provide the Subcommittee our 
official views on this matter. We expect the work group to complete its tasks 
and submit its recommendations in June of 2006.
	Mr. Chairman, this concludes my statement.  I would be pleased to answer 
any questions you or any members of the Subcommittee may have.
	[The statement of Mr. Wilson appears on p. 217]

	MR. BOOZMAN.  Thank you, Mr. Wilson.  Let me ask you a couple of questions 
real quick.  Several of the witnesses today mentioned that the VA regulations 
are outdated, cumbersome, presume the worse behavior in veterans and in the 
schools that administer the programs.  How do you respond to those comments?
	MR. WILSON.  Well, the programs have certainly evolved over time and, 
generally speaking, as they evolve, they are requiring new legislation and that 
does add a certain level of administrative burden to the programs that we 
administer.  I would argue though that that is generally a good thing because it 
has meant broader entitlement so we can pay more benefits to more people.  In 
terms of assuming the worst, I do not believe that that is accurate.  Some of 
the safeguards that we have in place right now are based on experiences many 
decades in the past and they are designed to make sure that the money that we 
are paying out is going to the beneficiaries they are designed for.
	MR. BOOZMAN.  I know I was on the school board for seven years and even at 
that level, we had a situation where we had a book probably this thick, that had 
evolved through the years and so we made it our purpose on a weekly basis to 
meet or a committee would meet and clean that out.  Do you feel like that is 
necessary in your case?  And again, I am not saying -- it is not your 
regulation, it is our regulation, along with your regulation, or to give us 
advice on how we need to help you clean it out.
	MR. WILSON.  Anything that we can do to streamline the process while 
maintaining the necessary safeguards would be a good thing.  So in terms of 
looking at that type of issue, absolutely.  It should be continually looked at.
	MR. BOOZMAN.  Okay.  And you might not know the answer to this one, but 
earlier on we were discussing about the discrepancy in the man-hours to process 
the initial supplemental claims versus the ones, the OJT and the other -- the 
off-system claims.  Can you provide -- do you have any idea what one processing 
system, the man-hours it would take to process versus the other?
	MR. WILSON.  Not detailed understanding of the technical specifics, no.  
There are certain types of claims, OJT is a classic example, that require a lot 
of administrative, basically "stubby pencil" involvement.  Originally 1607 was a 
lot that way because we did not have a payment system in place until February. 
We do have that payment system in place now. So yes, there are certain types of 
claims that are significantly more complex.
	MR. BOOZMAN.  Would you provide that information for us?
	MR. WILSON.  Absolutely.
	[The information is found on p. 252]

	MR. BOOZMAN.  Thank you.  Ms. Herseth.
	MS. HERSETH.  Thank you.
	Mr. Wilson, I think we are all hoping that maybe when you took the 
position, you signed a 10-year contract because I do think it is important.  I 
know that you have a history within the Education Service, but I do hope that 
there is some accommodation made as you make the transition here as Director, to 
perhaps look at what Mr. Guzman and others have pointed out, that have been 
recommendations in the past, that your predecessors agreed made sense, would be 
easy to implement, that that could perhaps be evaluated sooner rather than 
later, not to lose time on that front.
	I apologize because you may have given these numbers while I was visiting 
with counsel here.  Can you give us the latest data regarding the Chapter 1607 
claims processed, including the number of paid claims and pending claims and the 
status of the automated system that the Subcommittee was told a number of weeks 
ago was just being integrated?
	MR. WILSON.  I can give you some approximate numbers on the cases, 1607 
cases, that were pending when the payment system was implemented.  I do not have 
any data on the new claims that are coming in the door for 1607 right now.
	There were a little over 14,000 claims that were pending when the payment 
system was put in place in mid-February.  The RPOs have really addressed that 
aggressively and we have worked about 3400 of those claims.  Right now, there 
are roughly 11,000 or so that are pending.
	MS. HERSETH.  Any idea of when those will be -- I mean I appreciate the 
work, but I think -- and correct me if I am wrong.  I do not know, Chairman, if 
you remember this, when we were told that the automated system was put in place, 
we were told it would just be a matter of a few weeks that the backlog would be 
addressed.
	MR. WILSON.  Yes.  I would -- I am going out on a limb if I give any kind 
of specific date, but I feel confident that within the next 45 days, we would 
see most of those cases completed.
	MS. HERSETH.  Okay.  Perhaps you could give the Subcommittee an update at 
the end of April -- 
	MR. WILSON.  Absolutely, uh-huh.
	MS. HERSETH.   -- when we return from the Easter recess, as to the pending 
claims remaining from that point in time when the automated system came through.
	MR. WILSON.  Okay.
	MS. HERSETH.  Then on a related note, because you had mentioned in terms 
of new claims not having the most recent data, but that leads me to the question 
of what types of coordinated efforts are being pursued to ensure that the four 
men that we had here on our first panel and their counterparts in other states 
are getting information and accurate information about their eligibility for 
Chapter 1607?
	MR. WILSON.  I can talk about VA's efforts to a degree.  I am not versed 
on what DoD is doing in terms of providing outreach.  Part of the MOU that we 
signed with DoD had been to do some of that.  We are in the process in VBA of 
receiving a data run from DoD that would give us the entire universe of 
individuals that have been activated and are potentially eligible for this 
benefit.  As soon as we get that data and we can verify it, scrub it, make sure 
it is accurate, we can do a mass mailing to everyone, so we know everybody will 
get, at their home of record, one of our new trifold pamphlets that explain the 
benefit.
	We are also in the process of updating all of our general benefit 
information.  The IS-1 is only a yearly publication, so the next time that comes 
out, it will include the 1607 benefits.
	In our TAP and DTAP briefings, the information on 1607 is discussed as 
well, and I am fully aware of the concerns that everybody has concerning this 
wealth of information that the individuals coming back are getting.  They are 
getting a lot of information.  But that is part of the briefing package that we 
do give them.
	MS. HERSETH.  I appreciate that, and certainly every member of Congress' 
office wants to provide information as well, but I think the best we can 
coordinate that, the easier it is to minimize this information overload when our 
returning service members are receiving information from a variety of different 
sources, and focus on the counseling of which benefits they are eligible for and 
how to utilize those most effectively.
	I certainly am looking forward to the completion of the work groups 
analysis in June of 2006, but you raised an issue in terms of what some of that 
analysis is, and that is the contribution that active duty members make to 
utilize their Montgomery GI Bill benefit.  And while I was unable to attend the 
hearing that we had last week because of a markup of a bill in another Committee 
on which I sit, I understand that a question was raised as to what the National 
Guard and Reserve were going to be willing to contribute and for me, that is 
maybe going in the direction, but I think we should go in the other direction, 
especially when Dr. Kime says that we have only gotten to 60 percent of the 
benchmark.  And yet we are still requiring $1200 for active duty even 
participating and then if Guard and Reserve are at 28 percent of the 60, that 
the question would even be raised that the National Guard and Reservists would 
be paying at that rate, to receive a benefit at that rate. 
	Does anyone else on the panel want to address any conversations that you 
have had as it relates to the active duty or the National Guard and Reserve 
utilization of the benefits and this fee, this payment reduction that is imposed 
on active duty?  Any thoughts on that as we look to the restructuring of the 
Montgomery GI Bill?
	MR. BOMBARD.  The Committee has looked at this for a number of years and 
their recommendation is to eliminate the $1200.  As with a lot of the things the 
Committee has recommended, the Department of Veterans' Affairs has agreed, but 
there is always a cost issue that is why this recommendation has not been 
adopted.  But the $1200 has always seemed to the Advisory Committee as an unfair 
requirement for active duty personnel.  It is an earned benefit.  I did not pay 
$1200 when I came back from Vietnam.  I beleive military personnel who serve 
should be treatd equally.  Therefore the $1200 should be eliminated.  Now DoD 
has a financial interest in this and will argue not to eliminate it.
	The $1200 pay reduction poses a significant hardship on a first term 
enlistee.  Granted $1200 to make $36,000 is a good deal, but it is not always 
easy for the young enlistee.  Then if they decide they may want to go to college 
they don't always have the money.  My feeling is that should be eliminated and I 
believe that it is the position of almost everyone who is associated with it.
	But again, there is a cost factor.
	DR. KIME.  There are two very important things here that I would like to 
get out in public.
	One is that when we first put together the Montgomery GI Bill, this was 
done on a shoestring in the post-Vietnam era and in fact, when I first joined 
the Advisory Committee, I did a little study and I was just devastated to find 
out that the kids who did not take the GI Bill, the usage rate was in the 
thirties then, were paying for the ones who did.  The program cost no money.  
And of course, this was at a benefit of 200 and some odd dollars a month, which 
was, you know, a national scandal to begin with.  But we have come a long way 
since then, we are now at a benefit of $1034 a month, much to the credit of 
Congress.  I give them a lot of credit for that. 
	The $1200 is irrelevant.  It is irrelevant and it is almost silly.  I do 
not know how much money it really is to the Department of Defense, but it is 
time they came off of that kick.  Certainly two wrongs do not make a right.  
Doing the same wrong thing to the veterans in the Guard does not make it right, 
because it is wrong to begin with.  $100 a month out of an E-1's salary is just 
too much money.  And remember that one-third of them -- because the usage rate 
now is in the sixties, right?  That one-third of them are putting in $1200 and 
helping subsidize the ones who are fortunate enough to be able to go to college.  
How fair is that?  That does not make any sense.
	Well, second point is one that I really would like to be sure gets driven 
home.  And this is it:  The reason that folks like me who are advocates of 
veterans' education, have not pushed to eliminate that $1200 at the same time 
that we push for this total force GI Bill -- do you know why?  We do not want to 
give DoD a way to kill this thing.  And you should not let them either.  You 
should not let them for a lousy $1200 per kid that is coming into the services 
say that that is a poison pill for the total force GI Bill.  Let us get that out 
there on the table and talk about it honestly.  It should not be allowed to be a 
poison pill for the total force GI Bill.
	MR. BOMBARD.  Mr. Chairman, that is exactly accurate.  The Advisory 
Committee decided not to recommend the dropping of the $1200 because we did not 
want to give DoD the opportunity to declare it dead on arrival.  But it should 
be implemented.
	MR. BOOZMAN.  Mr. Snyder.
	MR. SNYDER.  Thank you, Mr. Chairman.  And I want to thank you again for 
having this hearing.  I think the panels have been just great.  In terms of 
quality of the witnesses, I think it is one of the best groups of people I have 
had the honor of listening to in my almost 10 years now.  I appreciate you 
putting it together.
	I know that everyone at the table came from some distance away and with 
the exception of Representative Elliott, you all came quite a distance away to 
get here today.  And we really appreciate you being here.
	And Mr. Chairman, I know you are very interested in this topic.  As 
somebody who did sit through most of the hearing last week, I think this panel 
would be a great panel to have back in D.C. for the rest of the members.  I 
think it could be very helpful.
	I also acknowledge and want to thank Doug Thompson from the Arkansas 
Democratic Gazette for having stayed with us.  I do not know how many doughnuts 
he is into this thing right now, but we appreciate him being here.  And in fact, 
the Arkansas Democratic Gazette did a story, I guess it was about three or four 
weeks ago, about Representative Boozman and myself, but the topic was the GI 
Bill and proposed changes to it.  And so I appreciate him being here.
	I do want to quote one thing in the story because I am having  trouble and 
have been for several years figuring out where the obstacles are in this.  But 
the Democratic Gazette called up Grover Norquist from the Americans for Tax 
Reform and asked him what he thought about these efforts to modernize the GI 
Bill.  And his exact quote was, "This isn't about helping soldiers, it is about 
corporate welfare for helping universities."  I mean that was Grover Norquist.  
He called the GI Bill, which I think has probably been one of the greatest 
promoters of the middle class in this country perhaps in the history of our 
country.  It was just absolutely shocking that he said that.  But he also has a 
lot of influence over the leadership in the Congress now.  And so we have got 
some work to do out there.
	Go ahead, Dr. Kime.
	DR. KIME.  I assume you cannot say crap in one of these places, so I will 
not do that. 
	MR. SNYDER.  It has been quoted in this armory that people have used that 
word before.
	[Laughter.]

	DR. KIME.  Well, good, I am glad I am not breaking any records here.
	MR. BOOZMAN.  I am losing control.
	[Laughter.]

	DR. KIME.  But that is really truly silly, speaking from higher 
education's point of view.  That is the dumbest thing I -- that is not the 
dumbest thing I have ever heard, but it is pretty dumb.  The fact of the matter 
is that other scholarship monies are out there and everything else to fund for 
education.  And the universities would not be behind the GI Bill simply because 
it brings in money for universities.  I have never, ever, ever -- and I have 
been at this awhile -- heard anything like that.
	MR. SNYDER.  Yes.
	DR. KIME.  They truly -- one of the best things that has happened to me in 
this business is that the people representing the universities have genuinely, 
very honestly and strongly supported veterans being called to active duty, 
especially to go into combat.  And these people have weighed in, they were the 
first there for the Partnership for Veterans Education.  Has nothing to do with 
how much money they are getting out of these so-called scholarships.  In fact, 
they have a practice where they offset scholarship money with GI Bill money, 
which I personally am opposed to, but the fact of the matter is it is a wash, it 
does not make any difference at all. So it is really a silly comment.
	MR. SNYDER.  Yeah, I thought it was too.
	This issue that has come up about the jurisdiction of the committees -- 
and it is a problem and I know it is inside the ballpark I think for a lot of 
folks who do not follow this closely, but there are good reasons why the two 
committees have different jurisdictions.  The DoD is responsible for the 
payments of the Reserve Component benefits and so that comes out of military 
budget, DoD budget, so that is why the Armed Services Committee does it. And the 
Veterans' Committee has the veterans who are no longer in the Reserve Component.
	But it is a problem for us.  And I do not know how well we are going to do 
at eliminating this jurisdiction.  Several of you have talked about testifying 
to this effect for years.  I have thought that one way to get at it would be to 
have at least -- to have on an annual basis a joint hearing between Mr. 
Boozman's committee or the full Veterans' Committee, and the Military Personnel 
Subcommittee on the Armed Services Committee.  If you had a joint hearing once a 
year with panels like you, where are we at with regard to the GI Bill, then it 
would enhance the coordination probably primarily between the staffs, but also 
between the members.  I do not understand why that has not been done.  I had a 
commitment from Chris Smith, the former Chairman of the VA Committee, to do that 
with Mr. McHugh, but it does not seem to be happening.  I requested hearings 
this year on the GI Bill and they have not been scheduled.  But it is 
frustrating.  If any of you have any comments about where the obstacles are 
coming from, I sure would like to hear them either publicly or privately.  I 
forget who it was along the line here who said there has not been any Department 
of Defense endorsement of change.  That may be a big clue to what is going on 
here and maybe it is money, I do not know, but as long as the Pentagon, in the 
current climate of one party rule in Washington -- this is my partisan comment -
- when we have one party rule in Washington and the Pentagon says they do not 
want any change, it makes it more difficult to change.  We have got good hearted 
people like Mr. Boozman who want to do something, but it makes it a challenge.
	Mr. Bombard, you specifically talked about how you have been testifying 
for a long time.
	MR. BOMBARD.  Maybe too long.
	MR. SNYDER.  I am sensing there is something in the air this year.  Do you 
agree with that? 
	MR. BOMBARD.  I would agree with that.  I have been testifying to 
restructure the G.I. Bill since I returned from Vietnam.  Then we wanted the 
Vietnam veterans to have the World War II G.I. Bill. This did not happen.  I do 
believe however, after having been involved with the G.I. Bill legislation for a 
long time, that this time it's different.  There is a momentum behind the total 
force concept that is going to be difficult to stop.  There is a momentum here 
to do the right thing.  I believe both the House an Senate Veterans' Affairs 
Committees have provided a positive forum to get that issue out.  I would also 
like to see the Armed Service Committee adopt a similar position.  But to answer 
your question, yes, there is something positive in the air.  The total force 
concept originated with the Advisory Committee a couple of years ago  and worked 
hard to develop it.  The Advisory Committee has members from DoD, higher 
education, VA, and the service organizations. People who really know the G.I. 
Bill put this together in the hopes that it would resolve an inequitable 
situationand administrative nightmare.  And it has.  Yes, I do believe the 
atmosphere is changing and I do believe the G.I. Bill concept is gaining 
momentum.  And I also think it is time to get on the train, before it leaves the 
station without you.
	MR. SNYDER.  The train's time table is a short window this year 
unfortunately.
	MR. BOMBARD.  I understand that. 
	MR. SNYDER.  Mr. Sweeney made the comment about -- in fact there were 
several things in his statement I wanted to comment on.  You referred to it as a 
lifelong learning.  And I think that this is different than when Mr. Bombard and 
I used our Vietnam benefits.  We thought about you get your profession, your 
career, and you are set for the next 35 or 40 years.  Representative Elliott 
talked about that.  And I think that attitude that I think more and more of us 
recognize, that a person coming out at age 24 or 25 or 22, has to think in terms 
of lifelong learning for their career, really renders these time limits of 10 
years or 14 years as not helpful to our veteran population or our Reserve 
Component population.  And I am just repeating, I am not really asking for your 
comment, Mr. Sweeney, but just really repeating what you said, because I think 
that is important.
	And on page 2, I think this was a wonderful statement you made Mr. 
Sweeney, in your written statement, you said "In our view, the GI Bills (plural) 
should be the premier educational assistance programs in the country, bar none." 
And it used to be, did it not?  When we came out of World War II and we had 
those hundreds of thousands of almost all men coming back home, most of them 
without college education.  Like Representative Elliott was referring to even 
today.  And then the GI Bill was you get into Harvard or you get into Yale and 
we are going to pay the bill. And when I was in college at a small but expensive 
private school in Oregon, when I went to college, started in 1965, I had a -- my 
biology teacher was just a brilliant woman who has been dead for a long time 
now, but she had been teaching at the time that the World War II veterans came 
back and she just said it was like a breath of fresh air because here were these 
kids who had never been on these kinds of campuses, with students who had never 
seen those kinds of kids.  And she said it was not uncommon to have some guy 
stand up in class and say "This is BS," only they would not say BS, because they 
were there for a purpose, they were motivated, they had seen the fires of hell 
and they were ready to get on with their lives.  Well, we have really gotten 
away from that.  Secretary Principi had talked about that in the Principi 
Committee, that he wanted us to adopt that principle, that if this 18 year old 
from Rogers High School gets into Harvard and has competed military service, 
whatever that expense is, we are going to help him do that.  Well, we do not 
even really think like that any more.  Maybe it is unrealistic or maybe we just 
do not expand our horizons, but think what that would mean for opening up poor 
kids around the country if that was still our operating principle.  
	But as Representative Elliott pointed out, the challenges of this 
escalating cost at all levels, but particularly private schools, and we are not 
even pretending that we are really providing a major effort to let these kids 
get into the board rooms or whatever through the ivy leagues or whatever.  I 
would like to address -- and I do not know if we need to have everyone comment, 
but I am talking about the big dreams and you all have been talking about this 
for years.  Do any of you have a realistic assessment, if you could do 
everything that you want to do, what the annualized cost would be to the federal 
taxpayers and where that money is going to come from?
	DR. KIME.  There are some indices you could use.  For example, right now, 
you are at 60 percent or so.  In fact, the number is 60.9 percent.  I did a 
little thing here on it.
	MR. SNYDER.  Of the benchmark?
	DR. KIME.  Of the Benchmark for Chapter 30.  So obviously you would need 
to find out how much is put out by Chapter 30 right now every year and increase 
it by the 40 percent, and raise the usage rate.  OMB will not let you forget it, 
because more kids would do it obviously.  If you build it, they will come.  So 
there you would have an increase of 60 percent in Chapter 30 outlays right off 
the bat.
	If you fixed the Reserve and Guard GI Bill and if you looked at their 
current usage rates, you would have some idea of that.  Probably we could sit 
down with a pencil on the back of an envelope and come up with something pretty 
quick on that.  I do not think that would be very hard to do.
	MR. SNYDER.  Because I think -- go ahead, Colonel.
	DR. KIME.  One more comment though.
	MR. SNYDER.  Yes, sir. 
	DR. KIME.  Remember that you have talked about Harvard and that is fine, 
but if you did that, you would be covering the cost of a four-year public 
education in the United States, you would not be going to a private school.  You 
would be covering a $15,100 a year bill, which is where it is right now.  But I 
would submit to you that that would cover 95 percent of all veterans who want to 
go to college and those who can get into Harvard out of the military are 
probably going to get a full paid scholarship.
	MR. SNYDER.  Yeah, that is right.
	Colonel Norton.
	COLONEL NORTON.  I do not pretend to know what the real number is, but I 
would just suggest that maybe looking at it from a larger perspective.  We do 
know that the Iraq supplemental, the war supplemental to carry on the War on 
Terror, a couple of hundred million dollars has been set aside, earmarked for 
cash bonuses for enlistment and re-enlistment in the active forces and in the 
National Guard and in the Reserve.  It is possible today for young men and women 
to come in or to re-enlist and get 30, 40, 50,000 dollar cash bonuses.  That is 
the way the Defense Department manages this operation today.  Nothing wrong with 
that, although to some extent I think there is a little cynicism there that this 
is becoming more and more of a mercenary force.
	We believe that what ought to be done here is that some of that money 
could be set aside to sort of jump start this total force GI Bill, in terms of 
the long-term investment in our economy and in these great young men that have 
served us.
	MR. SNYDER.  I think, you know, as we keep working on this this year and 
even in the next year, whatever it takes, but particularly in the next few 
months, we need to be more than just sensitive to the costs.  We need to be able 
to come out with a hard-core appraisal of this is how much it is going to cost 
and this is what Mr. Boozman and Ms. Herseth's plan is going to cost, and this 
is where we think we can find the money.  Because if we do not do that, then the 
people who do not want to see or do not think we can afford to change, will have 
us from the beginning because we will not even put a pencil to it.
	Yes, sir, Dr. Kime.
	DR. KIME.  It would be a terrible error though if we failed to come up 
with a new architecture for the GI Bill because of cost.
	MR. SNYDER.  Yeah.
	DR. KIME.  I have already told you that is the reason we did not talk 
about the $1200 elimination.
	MR. SNYDER.  Right.
	DR. KIME.  Is because we were afraid of the poison pill thing.  I would 
not look to raise basic benefits in the next year, frankly.  My personal opinion 
of this is that we would be much better served, and I believe veterans would be 
much better served, if you folks could fix the architecture and get that right 
and do not face DoD or even the Reserves or anybody else with huge financial 
issues that they have to deal with.  Get the architecture right, make it fair, 
clear, equitable, where you are right now, and I guarantee you that in the next 
four or five years, we would be sitting around here talking about how we are 
going to use that architecture to good advantage and fix the numbers.
	MR. SNYDER.  Do the three of you agree with that approach?
	MR. BOMBARD.  Yes.
	COLONEL NORTON.  Absolutely.
	MR. SNYDER.  Dr. Kime, I really appreciate your comment about priority.  I 
was thinking of my time on the Military Personnel Subcommittee on the Armed 
Services Committee in which we have an annual hearing on healthcare and it 
sometimes goes on for two-thirds of a day with multiple panels and I frankly 
wish we would divide up some, but we do it.  And we do not do it on educational 
benefits because we have not set that as a priority.  And I think that is 
something that we need to do.
	Representative -- incidentally, Stephanie, as you know, we have been 
trying to work out your political future here in Arkansas, and I do not know 
what that is going to be, but if you ever need a Secretary of Education, this is 
your woman right here.
	[Laughter.]

	MR. SNYDER.  Representative Elliott.
	I really appreciate your comments and your written statement, Joyce, but 
particularly I think you put more emphasis on the whole idea of the impact of 
the GI Bill on society as a whole.  And we can sometimes get so cute trying to 
figure out well, is it going to increase this recruitment rate or is it going to 
increase this retention rate or will there be a drop off, when we ought to be 
saying what would be the ramifications of having this be a program that military 
families, whether career or just the three or four years, could depend on and 
recognize as a driving force of the middle class and what that would do to our 
national security and technology development.  And so I think that is really an 
important point.
	And Mr. Guzman, I had one question for you and I am going to address it to 
you just because you talked about this some about the programs like truck 
driving and those kinds of things.
	I enlisted in the Marine Corps after having completed two years of college 
and it took me six years to get back to college, but somewhere along the line, I 
think I picked up a matchbook cover that had a phone number for a heavy 
equipment, construction heavy equipment operator school and it said GI Bill.  So 
I called this person and he said yeah, I will be glad to come and talk to you. I 
do not know if he came in from out of state, but he traveled some distance.  I 
think I was in Medford, Oregon and he traveled from Portland, Oregon.  I met him 
in the morning and he had a motel room, so there was an investment of his time.
	Well, there was a really, really heavy sell to get me to sign on that 
contract.  I felt like I was being preyed upon.  And he referred to, you know, 
Uncle Sam as "This is Uncle Sugar, you know, go ahead and sign it," that kind of 
thing.  As we talk about these programs to let people kind of forward all their 
benefits into one big swoop and it is to a three-week course or however it is, 
we had also better have ways, without increasing the bureaucracy for Mr. Wilson, 
but we sure better have some kind of a -- and maybe we have it already, I do not 
know -- but something to address people preying on our young veterans who want 
to get on with a program and sign up for something that is really high priced 
and it is not the quality, and I assume that you would agree with that also.
	MR. GUZMAN.  I definitely agree with that, sir.  But we do have those 
short-term, high-cost programs available today.
	MR. SNYDER.  Yeah.
	MR. GUZMAN.  And I think the veterans are part of society, they should be 
able to take advantage of them.
	I also wanted to comment on the cost of the program.  I think in the long 
run, it will not cost anything.  And I say this because if you look at the 
history of veterans' education, the return on the investment will pay for 
itself.  I realize you have to have the upfront money right now to pay the 
veterans for their education programs.  But if you look at the Vietnam era GI 
Bill, it paid 500 times the investment.
	MR. SNYDER.  Right.  That is a good point.
	MR. GUZMAN.  Yes, sir.  Thank you. 
	MS. ELLIOTT.  Mr. Snyder, may I just add -- 
	MR. SNYDER.  Yes.
	MS. ELLIOTT.   -- this comment has nothing at all to do with my work with 
the College Board, but I also belong to a group called Women's Actions for New 
Directions and one of the things that we have done a great deal over a number of 
years is take a look at the military budget.  And one of the things we have 
found is that the public has a perception that we are spending far, far more 
money than we are actually on the veterans as individuals.  They see the huge 
military complex budget and they think it is going to individuals, when in 
essence, not to get into it here, it is actually going someplace else.
	So I think one of the challenges we have, regardless of what the cost may 
be, is redirecting the public's attention to understanding where those dollars 
are actually going.
	MR. SNYDER.  How to invest in people.
	MS. ELLIOTT.  Exactly.  And I think we will have the support from the 
people to invest in people because right now they think that is happening, 
because actually that is not the priority in so many cases.
	MR. SNYDER.  And my final comment, Mr. Chairman, is Mr. Wilson, we really 
appreciate you being here.  You are a very well respected contributor to this 
whole effort to help our veterans.  I do want to close, Mr. Chairman, I notice 
that Mr. Wilson said at the end when the task force comes out with its 
recommendations, that "We will be pleased to provide the Subcommittee our 
official views."  And we have gotten official views and I know what the official 
views are, they are "no significant shortcomings," that is what we heard last 
week.  And so I appreciate that artfully drawn statement, but a lot of us are 
also going to be looking for people's personal views because I believe those are 
sometimes in conflict with the official views, because I think the programs, 
great programs, clearly do have significant shortcomings.
	And I applaud you, Mr. Chairman, for having this hearing and drawing 
attention to them and helping us get additional information to work on these in 
the future.
	And thank you again, Stephanie, for being here.
	MR. BOOZMAN.  Thank you.  Congressman Herseth.
	MS. HERSETH.  Just a couple of final comments to share with all of you.  I 
certainly appreciate Mr. Snyder's suggestion that Ms. Elliott should accompany 
me back to South Dakota.  I would appreciate it if you would.
	[Laughter.]

	MS. HERSETH.  Where I am headed later today is to spend two days in our 
reservation community with Native American students and talk about an 
unrepresented, under-represented segment of our population and what higher 
education can mean for them.  But I commend you and all of the rest of our 
witnesses on this panel and the previous panels for your testimony.
	I have to tell you it has been great to be here because the Arkansas 
Congressional delegation is my favorite.  And I do not say that to ingratiate 
myself to them, but clearly Chairman Boozman, in my short time in Congress since 
June of 2004, and working with him on this Committee in particular, but on other 
issues and how great he has been to work with in a truly bipartisan way, his 
leadership on the Subcommittee, his insightful analysis in the full Committee, 
and as I mentioned on other issues that we deal with on the House floor has been 
a great benefit to me in our working relationship since I became Ranking Member 
at the beginning of this term of Congress.  I know we can all tell from 
Congressman Snyder's comments and his questions today just the raw intellect as 
well as being so down to earth and wanting to, you know, get through everything 
that we need to get through to get to the bottom line of what has to be done and 
the way he encourages me to participate and to pursue other avenues through this 
Committee, through the Subcommittee and other issues has certainly been 
appreciated.
	And I have to tell you, your two other members of Congress, Mike Ross and 
Marion Berry, have traveled to South Dakota to shoot a few pheasants.  So I have 
enjoyed spending time with all four of them, and it is certainly a pleasure to 
be here today, and thank everyone who traveled as well as the Arkansas National 
Guard for your service to the country in so many different missions, certainly 
in this region down on the coast, but in Operation Iraqi Freedom and Enduring 
Freedom.
	Thank you very much for hosting me to your great state and to beautiful 
northwest Arkansas.
	MR. BOOZMAN.  Well, we appreciate you being here.  We just wish the 
weather was a little bit nicer.
	I want to thank the staff for their hard work in setting this up.  The 
District staff here, all of those that worked so hard to get the room ready and 
those kind of things.  I also want to thank the staff of the Subcommittee.  I 
know that they have worked very hard to make this happen and it is a lot of work 
to make these things happen.
	I especially want to thank Senator Pryor and Ms. Herseth and Mr. Snyder 
for being here.  Again, these people have very busy schedules and yet, part of 
our schedule is talking about the things that we talked about today and that is 
so, so important.  
	I agree with Vic, I think this is one of the best panels overall, all of 
the panels, that we have had.  So we appreciate your testimony very, very much. 
	We especially appreciate you, Vic, in the sense that being on Armed 
Services, you really do have a unique perspective in this thing and really are 
very helpful in guiding us through the process.  We are going to work really 
hard to see some changes fairly quickly.  And I agree, I think there is 
something in the wind right now, we are a nation at war, this is the right thing 
to do.  I am glad that Congressman Snyder brought up the comment that he did.  I 
read that also and I looked at that and I thought that is the goofiest thing I 
have ever read in my life.  You know, I could not think of that if I tried to.
	But again, we do appreciate everything.  A special thanks to the 142nd 
Field Artillery for hosting us and to everyone who appeared here today, 
especially to the members of the Arkansas National Guard.  Each of you 
represents  what is good in America.  Your voluntary commitment to join the one 
percent who defend the other 99 percent exemplifies the spirit that has lasted 
from our earliest Colonial days to those who now serve with you in harm's way.
	So the final thing I would like is I would like to ask all of us present 
today if you would all join me in showing our appreciation for these men and 
women and all they represent.
	[Applause.]

	MR. BOOZMAN.  Thank you.  The hearing is adjourned.
	[Whereupon at 2:00 p.m., the Subcommittee was adjourned.]
     
<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

</pre></body></html>
